<html>
<title> - S. 2304, S. 2468, S. 2580, AND S. 2711</title>
<body><pre>[Senate Hearing 114-287]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-287
 
                 S. 2304, S. 2468, S. 2580, AND S. 2711

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

 S. 2304, A BILL TO PROVIDE FOR TRIBAL DEMONSTRATION PROJECTS FOR THE 
INTEGRATION OF EARLY CHILDHOOD DEVELOPMENT, EDUCATION, INCLUDING NATIVE 
  LANGUAGE AND CULTURE, AND RELATED SERVICES, FOR EVALUATION OF THOSE 
             DEMONSTRATION PROJECTS, AND FOR OTHER PURPOSES

S. 2468, A BILL TO REQUIRE THE SECRETARY OF THE INTERIOR TO CARRY OUT A 
 FIVE-YEAR DEMONSTRATION PROGRAM TO PROVIDE GRANTS TO ELIGIBLE INDIAN 
 TRIBES FOR THE CONSTRUCTION OF TRIBAL SCHOOLS, AND FOR OTHER PURPOSES

S. 2580, A BILL TO ESTABLISH THE INDIAN EDUCATION AGENCY TO STREAMLINE 
     THE ADMINISTRATION OF INDIAN EDUCATION, AND FOR OTHER PURPOSES

  S. 2711, A BILL TO EXPAND OPPORTUNITY FOR NATIVE AMERICAN CHILDREN 
    THROUGH ADDITIONAL OPTIONS IN EDUCATION, AND FOR OTHER PURPOSES

                               __________

                             APRIL 6, 2016

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          



                   U.S. GOVERNMENT PUBLISHING OFFICE
                  
 20-548 PDF                  WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001  




         
         


                       COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 6, 2016....................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Cantwell....................................    48
Statement of Senator Daines......................................    40
Statement of Senator Franken.....................................     6
Statement of Senator McCain......................................     4
Statement of Senator Schatz......................................     5
    Prepared statement...........................................     6
Statement of Senator Tester......................................     3

                               Witnesses

Boham, Sandra, Ed.D., President, Salish Kootenai College.........    29
    Prepared statement...........................................    31
Begay, Hon. Carlyle W., Arizona State Senator, Legislative 
  District 7.....................................................    13
    Prepared statement...........................................    15
Roberts, Lawrence S., Acting Assistant Secretary, Indian Affairs, 
  U.S. Department of the Interior................................     7
    Prepared statement...........................................     9
Whitefoot, Patricia, President, National Indian Education 
  Association....................................................    17
    Prepared statement...........................................    19

                                Appendix

Baker, Hon. Bill John, Principal Chief, Cherokee Nation, prepared 
  statement submitted to the House Interior Appropriations 
  Subcommittee--March 18, 2016...................................    51
Dine Bi'olta School Board Association, Inc. (DBOSBA), prepared 
  statement......................................................    53
Letters of support submitted for the record 




                 S. 2304, S. 2468, S. 2580, AND S. 2711

                              ----------                              


                        WEDNESDAY, APRIL 6, 2016


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:20 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order.
    Before we get started, the Committee would like to 
recognize the wonderful life of Joe Medicine Crow of the Crow 
Nation who passed away at the age of 102. He was awarded the 
Presidential Medal of Freedom in 2009, as well as numerous 
honorary doctorate degrees.
    I join Senators Tester and Daines of Montana and all of 
Indian country in celebrating this true American hero.
    Senator Tester.
    Senator Tester. Yes, and I think Senator Daines has 
something he would like to say after me. That would be fine 
also. I am going to ask for a moment of silence for Dr. Joe 
Medicine Crow in a second.
    As the Chairman said, Joe received the Presidential Medal 
of Freedom in 2009 from President Obama.
    He lived a remarkable life and left an incredible legacy. 
He was an incredible American and an incredible Native 
American. He advocated for issues that impact every Native 
American in this country.
    He was a special man I had the opportunity to meet and was 
continually impressed by his humbleness and his directness.
    I think after Senator Daines has a word or two we will just 
have a moment of silence for him.
    The Chairman. Senator Daines.
    Senator Daines. Thank you, Senator Tester.
    We lost a treasure in Montana with Dr. Joe Medicine Crow. 
He was a Chief and to be a Chief, going through that process, 
is a very, very high standard. He was also a decorated World 
War II veteran.
    I echo Senator Tester's remarks in terms of his true 
humility. It was an honor to meet Dr. Medicine Crow, Chief 
Medicine Crow, on the Crow Reservation. He will be dearly 
missed. Our condolences are with the family and the entire Crow 
Nation.
    Senator Tester. May we have a moment of silence for him, 
please.
    [Moment of silence.]
    The Chairman. Thank you.
    I saw the obituary in today's New York Times. Much has been 
written about the Chief but it says, ``Joe Medicine Crow, 102, 
Tribal War Chief.'' I will ask, without objection, to have 
today's obituary from the New York Times included in the 
record.
    Senator Tester. Thank you, Mr. Chairman.
    The Chairman. Today, the Committee is going to receive 
testimony on four education bills. Senator Tester has 
introduced two bills: S. 2304, the Tribal Early Childhood, 
Education, and Related Integration Act of 2015 and S. 2468, the 
Safe Academic Facilities and Environments for Tribal Youth Act.
    Senate Bill 2304 establishes a demonstration program that 
would provide funding for early childhood infrastructure and 
workforce development. It would also expand certain benefits of 
the Federal Stafford Loan Forgiveness for Teachers Program.
    S. 2468 focuses on school construction needs for Indian 
children.
    I will turn to Senator Tester in a moment to explain the 
bills.
    Senator McCain has introduced S. 2711, the Native American 
Education Opportunity Act. We will turn to Senator McCain as 
well in a few seconds. This bill would allow students who 
attend a Bureau of Indian Education school the option to attend 
another school of their choice, using existing Federal dollars.
    Finally, I have introduced S. 2580, the Reforming American 
Indian Standards for Education Act of 2016, otherwise known as 
the RAISE Act. Last May, the Committee held an oversight 
hearing on the organizational challenges facing the Bureau of 
Indian Education.
    The BIE school system includes 183 elementary and secondary 
schools and dormitories on 64 reservations in 23 States, with 
an estimated 47,000 students. We have heard from the Government 
Accountability report that the bureaucracy at the Department of 
the Interior and the Bureau of Indian Affairs has created 
administrative and staffing problems for these schools.
    Some of the most important functions like school 
construction, facility management, and budget planning do not 
directly fall under the director of the Bureau of Indian 
Education. Instead, the BIA manages these functions.
    As many of my colleagues on this panel know, the BIA is 
failing in that responsibility. In fact, just last month, the 
GAO issued another eye-opening report on the safety and health 
at Indian school facilities.
    One disturbing statistic GAO uncovered is that 54 schools 
have received no safety or health inspections during the past 
four fiscal years. In addition, the Committee learned late last 
week that the current BIE Director, who was scheduled to 
testify today, has been removed from his position as a result 
of a recent Inspectors General investigation.
    If the BIA is not going to be accountable in ensuring a 
child's school is safe to attend, then we must act. Simply put, 
my bill would move all education-related responsibilities to a 
new independent agency in the Department of the Interior.
    The new Indian education agency would be headed by a 
presidentially-appointed and Senate-confirmed director. It 
would also create two new assistant directors who would oversee 
education curriculum and facility management. This would 
streamline decision-making process, reduce the bureaucracy, and 
provide a more suitable structure than what currently exists.
    There are many challenges to improving Indian education 
beyond management. That is why I have introduced the RAISE Act 
today. This bill is a start toward a more responsible and 
responsive agency.
    All of the bills before us today have a goal of creating a 
better environment for Indian students, whether they are 
attending a BIE-funded school, a public school, or a tribal 
college or university. To that end, I look forward to our 
witnesses' testimony.
    Senator Tester, I know you have an opening statement. Then 
I will turn to Senator McCain.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    I want to express my appreciation for you holding this 
legislative hearing focusing on Indian education legislation 
that is pending before this Committee, including two bills that 
I have sponsored.
    These two bills focus on two very important areas of Indian 
education, early childhood education and education 
infrastructure needs in Indian country. These bills are based 
on input I have received from tribal leaders and Indian 
education advocates and were composed with assistance from 
national tribal organizations.
    I am proud to submit for the record a number of letters of 
support from Native education stakeholders for each of these 
bills.
    The first of my two bills, the Tribal Early Childhood, 
Education, and Related Integration Act would create a 
demonstration program at the Department of Health and Human 
Services to coordinate tribal early childhood programs.
    This demonstration would provide more local control over 
those programs and would reduce government red tape. Similar to 
other programs like NAHASDA and 477, this bill promotes tribal 
sovereignty over education by allowing tribes to locally 
determine their early childhood needs while maintaining 
commonsense accountability and goal standard program 
requirements.
    To make sure these programs have the resources they need to 
be successful, this bill would also create an authorization for 
construction of tribal early childcare facilities and expand 
support for early childhood educators by providing access to 
more Federal student loan forgiveness programs.
    The other bill, the Safe Academic Facilities and 
Environments for Tribal Youth Act or the SAFETY Act, seeks to 
address the enormous amount of needs school facilities have in 
Indian country. It fulfills these needs with commonsense 
measures and improving the living environments for Indian 
students from kindergarten through higher education.
    These school facility needs are well documented at the 
Bureau of Indian Education. While I applaud the department for 
releasing its new school replacement priority list yesterday, 
we still need a solid, comprehensive plan to improve the entire 
BIE system in a timely manner.
    We cannot make another generation of Native students wait 
for us to get our act together. That is why this bill would 
mandate that the BIE and the OMB develop a ten year plan to 
bring all BIE facilities to good condition. The bill also looks 
to provide Federal support for teacher housing on reservations 
and authorizes funding for tribal colleges and universities to 
add more classrooms and community spaces.
    Finally, given that we know over 90 percent of the Native 
students in this country attend local public schools, I think 
this Committee should have a better understanding of the 
facility needs of the impact aid schools they attend. That is 
why this legislation will require a report by the GAO to 
examine the needs of those districts.
    Before we begin, I would like to thank Dr. Boham for 
appearing here today to testify. Dr. Boham is a fellow Montanan 
and president of the Salish and Kootenai College in Pablo, 
Montana.
    While I know the loss of the former SKC President DePoe is 
deeply felt. I am glad that Dr. Boham has taken up Dr. DePoe's 
mantle in continuing the excellent progress SKC has achieved.
    We have work to do to improve the state of Indian 
education. Moving these measures forward is a step towards 
fulfilling the promises and commitments that the Federal 
Government has made to Native Americans.
    I want to thank you again, Mr. Chairman, for calling this 
hearing. I look forward to the testimony.
    The Chairman. Thank you, Senator Tester.
    Senator McCain?

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Mr. Chairman, I am compelled to raise an 
issue about a Committee field hearing scheduled for April 22, 
2016 in Phoenix, Arizona concerning EPA's failing government-
to-government relationship with Indian tribes. The April 22 
oversight hearing has a particular focus on the Gold King Mine 
spill that devastated farmers and families on the Navajo 
reservation in August. Believe me, this was devastating and 
there is no doubt about the responsibility that rests with the 
EPA.
    Therefore, we have requested, as part of the hearing, Mr. 
Chairman, that the EPA send a witness so that we can talk about 
the reclamation and healing of the Native Navajo lands that 
were absolutely devastated by this toxic spill. Three million 
gallons of toxic wastewater were unleashed on the Navajo 
reservation.
    It is my understanding that the EPA has decided not to send 
a representative to this field hearing. EPA's response is 
unacceptable. It is a violation of our obligation to protect 
the interest of Native Americans and their tribes. EPA must be 
present at this hearing. I respectfully request the Committee 
issue a subpoena for EPA Administrator Gina McCarthy to appear 
at the field hearing scheduled for April 22, 2016 in Phoenix, 
Arizona.
    The Chairman. Senator McCain, you are correct. The EPA has 
declined to send anyone to the field hearing. The field hearing 
you referred to was requested by you on behalf of the Navajo 
Nation as a top priority of this Committee.
    This is not a partisan issue. It is a Native American 
issue. I will work with you and others on this Committee to 
issue a subpoena for Administrator Gina McCarthy to appear. She 
is the one in charge at the EPA. The Senate has confirmed her 
nomination with the understanding that the EPA would be 
responsive to Congress. This is not being responsive.
    Thank you, Senator McCain.
    Are there other comments with regard to your bill that we 
will be discussing today?
    Senator McCain. No, Mr. Chairman.
    I would like to point out again this toxic spill of three 
million gallons of toxic wastewater, I have to be very blunt as 
I have been known to do, suppose this had happened in a non-
Indian area? The representatives would have been up in arms. 
This is a national scandal.
    Instead, not only hasn't the issue been resolved, the 
devastation is still there, but the EPA has not challenged the 
fact that it was EPA that caused the spill, but does not even 
want to send a representative to a hearing that needs to be 
held on behalf of these Navajo families whose lands, livelihood 
and lives have been devastated. Is that what the EPA is all 
about? I hope not.
    I would urge the support of all members of the Committee on 
behalf of the Navajo Nation which has urgently asked that the 
EPA be there because there is a lot more work to do to repair 
the damage of three million gallons of toxic wastewater that 
has been dumped onto their sacred lands.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCain.
    Are there other statements? Senator Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    I thank the Chair and the Vice Chairman for your work on 
these issues. I wanted to say that among the most promising 
best practices in Native education at every level are programs 
that integrate Native language and cultural revitalization. 
That is why I am such a strong supporter of S. 2304.
    I am also a strong supporter of self determination and S. 
2304 will empower Native Americans to make decisions most 
beneficial to their communities in an educational context.
    In the interest of time, I would like to submit a longer 
statement for the record.
    The Chairman. Without objection, so ruled.
    [The prepared statement of Senator Schatz follows:]

               Prepared Statement of Hon. Brian Schatz, 
                        U.S. Senator from Hawaii
    First I'd like to thank Chairman Barrasso and Vice Chair Tester for 
your leadership, and your work on key issues impacting native 
communities.
    Among the most promising best practices in native education--at 
every level from early childhood to university--are programs that 
integrate Native language and culture revitalization. That is why I am 
a strong supporter of S. 2304, the Tribal Early Childhood, Education, 
and Related Services Integration Act, aimed at improving the quality of 
early childhood development opportunities in native communities. I am 
also a strong supporter of self-determination and S. 2304 will empower 
Native American tribes and educators to make decisions most beneficial 
to their communities. I look forward to the testimony from the witness 
panel today.
    Over the past three decades, the Native Hawaiian community has 
developed an extensive array of educational programs delivered through 
comprehensive culturally-informed curricula and instructional delivery 
methods. Some of the programs are taught in English, others are taught 
in the medium of Hawaiian, and still others have lessons in both 
English and Hawaiian.
    At the foundation of many of the most successful Native Hawaiian 
education programs are comprehensive early education initiatives. 
Another key component is the focus on developing the ``whole child'' as 
part of an extended family and community grounded in Hawaiian culture, 
values and practices.
    Many programs recognize the importance of inter-generational family 
members--not only parents, but grandparents, aunties, uncles, and other 
primary caregivers--as first teachers for their children, and as part 
of a community of other parents, family members, and teachers working 
together. The curriculum is organized around learning themes and 
cultural aspects, as well as those values that continue to influence 
the lives of Hawaiian children. Some innovative programs have developed 
the capacity to travel to where they are needed.
    An internationally accredited and recognized indigenous language 
medium program, began almost 30 years ago when the community realized 
that the Native Hawaiian language was about to be lost--is now a model 
followed throughout the United States. But in the beginning the program 
started when young parents and elders came together to establish 
centers where the Hawaiian language and Hawaiian cultural traditions 
central to family life would be reestablished and maintained--starting 
with toddlers. Expansion of this preschool program progressed through 
elementary and high school into the university and eventually to 
graduate programs to form a comprehensive and integrated P-20 Native 
language educational system.
    Now with three decades of data and experience--three generations of 
Native language speakers, a second generation of Hawaiian medium 
teachers and administrators, and an accredited college dedicated to 
teacher preparation and education in the Native language--the benefits 
of this form of education are clear.
    We have also learned that a unique strength of Hawaiian medium 
preschools is early literacy development. The children in these schools 
learn to read approximately two years earlier than children in English 
medium schools. This early literacy is possible in part because of the 
syllabic methodology in the Native Hawaiian language, and due to the 
reliance on culturally-based instructional delivery methods to form 
literacy foundations and building blocks.
    There are distinct advantages in learning initial reading in the 
contemporary writing systems developed for Native American languages. 
Native American writing systems are more aligned with scientific 
linguistic principles central to teaching early reading than is the 
highly irregular English writing system. Once the skill of reading is 
mastered, it easily transfers to reading in English and other 
languages.

    The Chairman. Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you.
    A very good thing happened for the Bug-O-Nay-Ge-Shig 
School, the announcement of $11.9 million in funding to replace 
the Bug-O-Nay-Ge-Shig School. During this hearing, I will ask 
Mr. Roberts some questions to get a bit more clarity on when 
that money will get where it is going.
    It is something I have been working on since I got here 
essentially. I want to thank Interior Secretary Jewell for her 
work in getting that money. It speaks to the larger issue of 
school construction and maintenance in this country in Indian 
country.
    I am looking forward to today's hearing.
    Thank you.
    The Chairman. Thank you, Senator Franken.
    With that, we will bring the witnesses forward and ask them 
to testify. We will hear from Mr. Lawrence Roberts, Acting 
Assistant Secretary, Indian Affairs, U.S. Department of the 
Interior; the Honorable Carlyle Begay, Arizona State Senator, 
District 7, Arizona State Senate, Phoenix, Arizona; Ms. 
Patricia Whitefoot, President, National Indian Education 
Association; and Dr. Sandra Boham, who Senator Tester already 
introduced.
    Welcome to each of you. I want to remind you that your full 
written testimony will be made a part of the official record. 
Please try to keep your statements to about five minutes so 
that we have time for questions.
    Mr. Roberts, please proceed.

 STATEMENT OF LAWRENCE S. ROBERTS, ACTING ASSISTANT SECRETARY, 
            INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Roberts. Good afternoon, Chairman Barrasso, Senator 
McCain, Senator Franken, Senator Schatz, and members of the 
Committee.
    Thank you for the opportunity to testify on a number of 
bills that impact the Bureau of Indian Education. I want to 
thank each and every one of you for your dedication to Indian 
country and in particular, to Indian students. The department 
appreciates the ideas put forward to set students in BIE 
schools on a path toward high achievement and success.
    I want to thank each of the sponsors of the bills for their 
leadership and for the time and attention of your staffs to 
developing creative approaches to fostering student 
achievement. I know we share that commitment and look forward 
to continuing to work with all of you on what is truly a 
bipartisan issue.
    I want to start by touching on the recent leadership 
changes at BIE. Last week, the Inspector General released a 
report concerning Dr. Roessel. Given the gravity of the issues, 
Dr. Roessel has been removed from the BIE Director position. As 
this is an ongoing personnel matter, I appreciate your 
understanding that I cannot get into more specifics regarding 
Dr. Roessel today.
    However, I am also very pleased to announce that Deputy 
Assistant Secretary Ann Marie Bledsoe Downes will serve as 
Acting BIE Director. She is a member of the Winnebago Tribe of 
Nebraska and has an education background. She previously served 
as President of the Little Priest Tribal College and on the 
President's Advisory Board on Tribal Colleges and Universities. 
She has been engaged in our education reform work and is 
exceptionally qualified to take on this position.
    Our BIE reorganization continues to move ahead and we hope 
to see most of the reforms completed by the end of this year. 
As a number of Senators mentioned in opening testimony, the GAO 
has released a number of reports on the ongoing management 
challenges and resulting poor student performance at BIE.
    We are addressing each and every one of those issues and 
are making significant progress towards building an 
organization that focuses on performance and accountability 
with an emphasis on tribal self-determination. To address the 
structural challenges, we are removing red tape so the BIE 
director can operate effectively on a suite of issues like 
budget, facilities management and acquisitions. Our ultimate 
goal is to structure our organization to better meet the 
academic needs of our students and improve the performance of 
our schools.
    Today's bills cover a spectrum of proposals from creating 
an independent agency to utilizing BIE appropriations to fund 
individual accounts for students to attend private schools. 
There has been a lot of attention, rightly so, on the lowest 
performing schools funded or operated by BIE.
    I want to emphasize that not every school in our system is 
underperforming. In fact, we have had success stories like the 
Sequoia School at the Cherokee Nation. I personally had a 
chance to visit that school with Principal Chief Bill John 
Baker who has made education a pillar of his administration. 
The high school is truly exceptional with high achievement by 
their students and a commitment to fostering tribal culture and 
tribal languages.
    We also have had a number of schools that are bright lights 
which we are building on as part of our reforms. Many of our 
kids, when they enter BIE schools are trailing kids nationally 
at their grade level. The kids in these bright light schools 
are outpacing State schools on measures of academic growth in 
terms of math and reading, passing kids they once trailed. With 
those schools in mind, I want to turn to today's bills.
    With regard to your bill, Chairman Barrasso, we appreciate 
the intention to elevate Indian education. Our BIE 
reorganization does much of what it can administratively to 
accomplish the same goal but our concern with the bill, quite 
frankly, is that an independent agency may require too much 
growing of the administrative functions and it might take some 
time to stand up entirely new agency. We would like to work 
with you to address those concerns.
    Senator McCain, turning to your bill, the department does 
support the goal of providing additional educational 
opportunities to Native American students. Our concern is how 
the bill, as drafted, might impact or reduce resources for 
tribally and BIE operated schools while potentially having an 
impact on per pupil costs.
    With regard to Senator Tester's bill, the department 
supports that legislation. While we understand many tribes 
believe it is the Federal Government's sole responsibility to 
construct, maintain and replace all BIE schools, it provides a 
choice for those tribes that choose to use their own funds.
    Finally, I would like to touch on the recent announcement 
we made regarding school construction. I know it has been a 
topic of great interest for many members of the Committee.
    Ten BIE schools are now eligible for funding for campus-
wide replacement. The release of the list is a necessary step 
forward to ensure that students have access to quality 
education. The next step is to secure funding to replace those 
schools. We look forward to continuing to work with all of you 
on that issue.
    Separately, as Senator Franken said, we will provide 
funding to replace a single building at the Bug School. After 
reviewing the data, this is the only building that is in poor 
that was never designed to be used as an educational building. 
This will be accomplished through a separate budgetary line 
item.
    Mr. Chairman, that concludes my testimony. I am happy to 
answer any questions you may have.
    [The prepared statement of Mr. Roberts follows:]

Prepared Statement of Lawrence S. Roberts, Acting Assistant Secretary, 
            Indian Affairs, U.S. Department of the Interior
s. 2468, the safe academic facilities and environments for tribal youth 
                                  act
    Good afternoon, Chairman Barrasso, Vice Chairman Tester, and 
members of the Committee. My name is Larry Roberts, and I am the Acting 
Assistant Secretary for Indian Affairs at the Department of the 
Interior (Department). I appreciate the opportunity to testify on 
behalf of the Department before this Committee on S. 2468, the Safe 
Academic Facilities and Environments for Tribal Youth Act, a bill to 
require the Secretary for the Department to carry out a five-year 
demonstration program to provide grants to eligible Indian tribes for 
the construction of tribal schools, and for other purposes. The 
Department supports S. 2468.
    The Bureau of Indian Affairs provides funds for facility programs 
for 183 academic and resident-only facilities on 63 reservations in 23 
states for approximately 48,000 students and two post-secondary 
institutions, the Haskell Indian Nations University, and the Southwest 
Indian Polytechnic Institute. Since 2001, the condition of BIA-funded 
schools has improved. In the last 10 years, Congress provided over $2.5 
billion for construction, repair, and maintenance to reduce the number 
of schools in ``poor condition'' by nearly 50 percent. The number of 
schools in poor condition went down from more than 120 in 2001 to 63 
today. We were pleased to receive funding in FY 2016 to complete work 
on the last two schools on the 2004 replacement school priority list. 
While significant progress has been made in the correction of education 
facility deficiencies, the fact that 63 schools remain in poor 
condition is unacceptable.
    S. 2468 proposes a demonstration program that would allow for 
tribal contributions to accelerate the construction of education 
facilities in the BIE system. While such facilities are a Federal 
responsibility, some tribes have chosen to use their own funds. 
Therefore, the Department supports S. 2468 as an option for tribes if 
they choose to contribute their own funds.
    S. 2468 aims to improve Indian Country education-related facilities 
by directing the Secretary to establish a five-year demonstration 
program that would allow for tribal contributions to accelerate the 
construction of education facilities in the Bureau of Indian Education 
system. S. 2468 also would amend the Tribally Controlled Colleges and 
Universities Assistance Act of 1978 to improve and expand federal 
grants for the construction of new postsecondary facilities. 
Additionally, S. 2468 would authorize the BIE to provide housing 
assistance to Native communities with BIE schools and public schools 
with large American Indian/Alaska Native populations. Finally, S. 2468 
would require the BIE and the Office of Management and Budget to 
develop a 10-year plan to bring all BIE schools into ``good condition'' 
within the Facilities Condition Index, and would require the Government 
Accountability Office to conduct a study on the Impact Aid school-
construction program administered by the Department of Education.
    The Department understands that S. 2468 would establish a separate, 
and potentially duplicative, program from our current BIE construction 
program. This new program would be outside the BIA's current process 
for new school construction and outside the Indian Affairs' improvement 
and repairs program.
    The Department supports the goal of improving the management of the 
education construction portfolio by developing a 10-year plan for 
school construction and repair. Implementation of that plan would be 
contingent upon future appropriations.
    The Department understands that it may be difficult for any tribe 
to commit up to 25 percent of its own resources toward a BIE school, 
especially considering that the Federal Government would retain 
ownership. The Department further understands that many of those tribes 
that currently have BIE schools and BIE dormitories on their lands 
believe it is the Federal Government's sole responsibility to 
construct, replace, repair, and maintain all BIE schools.
    The Department supports grants to Tribal Colleges and Universities 
(TCUs) but suggests that the bill also consider how Operation and 
Maintenance funding will be addressed after the buildings are 
constructed under the five-year demonstration program, and whether 
those buildings would become part of the BIE inventory that the Federal 
Government would be required, in the future, to replace. The Department 
recommends clarifying whether the new education facilities and teacher 
housing constructed under the demonstration program would be owned by 
the Tribe or the Federal Government so that it is clear which entity 
would be responsible for managing, maintaining, and eventually 
replacing the facilities.
    Again, the Department supports S. 2468. The Department would like 
to work with the Committee to address our concerns. I am prepared to 
respond to any questions the Committee may have.

 s. 2580, reforming american indian standards of education act of 2016
    Good afternoon, Chairman Barrasso, Vice Chairman Tester, and 
members of the Committee. My name is Larry Roberts, and I am the Acting 
Assistant Secretary for Indian Affairs at the Department of the 
Interior (Department). I appreciate the opportunity to testify on 
behalf of the Department on S. 2580.
    The Department recognizes the challenges we face in providing high-
quality education to American Indian students in schools that are 
operated by tribes or directly operated by the Bureau of Indian 
Education (BIE). S. 2580 would replace the BIE with the Indian 
Education Agency (IEA) and elevate the current career Director position 
to a Presidentially appointed political position. S. 2580 would 
transfer all the current employment positions and functions of BIE to 
the IEA. The Department appreciates the Chairman's commitment to 
improving the education of Native students; however, the Department 
does not support S. 2580 for the reasons outlined below.
The Bureau of Indian Education
    The BIE supports education programs and residential facilities for 
Indian students from federally recognized tribes at 183 elementary and 
secondary schools and dormitories. Currently, 51 tribes operate 129 
schools and dormitories through grants or contracts with the BIE and 
the BIE directly operates 54 residential and non-residential schools. 
During the 2015-2016 school-year, BIE-funded schools served 
approximately 48,000 American Indian students and residential boarders 
in grades K-12. Approximately 3,800 teachers, professional staff, 
principals, and school administrators work within the 54 BIE-operated 
schools. In addition, approximately twice that number work within the 
129 tribally operated schools.
    161 BIE schools are located in communities with a population of 
10,000 or less. The average distance of BIE schools to the closest 
urban center is 164 miles. Only five of our schools are located in an 
urban center. BIE schools are typically located in the heart of rural 
America. The rural and remote locations of the schools are most often 
in areas of concentrated poverty with insufficient housing and 
services. The geographical dispersion of the schools makes it difficult 
to achieve economies of scale in terms of staffing for both 
instructional and school operational support. Federal funding addresses 
infrastructure needs such as water, roads, fire departments, housing, 
and high-speed broadband access. When taken together, these factors and 
the unique educational and instructional-support requirements have 
contributed to the higher than average U.S. public school per-pupil 
costs.
    The Department of the Interior and the Department of Education 
worked together to form the BIE Study Group (Study Group) to diagnose 
the educational conditions that contribute to academic challenges in 
BIE-funded schools, and to recommend strategies for tackling these 
complex issues. The Study Group combined management, legal, education, 
and tribal expertise to ground its recommendations in a comprehensive 
manner to improve how schools work in Indian country, including 
effective teaching practices and student learning.
    The Study Group visited schools and met with tribal leaders, school 
boards, educators, parents, and other stakeholders from numerous tribes 
across the country. The impact of not having an education system 
tailored to the needs of 21st century learning is seen first-hand in 
the lack of technology, aging school structures, difficulties in 
attracting and retaining teachers, inadequate socio-emo*tional support 
networks, and out-of-sync curricula. Yet, amidst these challenges, many 
promising signs of change were seen, growing from grassroots solutions 
and best practices that can be scaled up to other schools.
    Recommendations, published in the Blueprint, are focused on five 
pillars of reform: Comprehensive Supports through Partnerships, Self-
Determination for Tribal Nations, Highly Effective Teachers and 
Principals, Agile Organization Environment, and Budget that Supports 
Capacity Building. These five pillars bring together the evidence and 
expertise from the reviews, analysis, tribal consultations, tribal 
listening sessions, visits, and research. Our course is one in which 
the BIE moves away from a ``command and control'' regime and instead 
partners with tribes to provide the services, resources, and technical 
assistance that tribes need to directly operate high-achieving schools.
    With an organizational structure better suited to the fact that 
tribes operate the majority of BIE schools, the restructured BIE will 
result in schools that can better prepare their students for college 
and the workforce. Further, the restructured BIE will be able to 
strengthen and support the efforts of tribal nations to exercise self-
deter*mination. The BIE will fully maintain its trust and treaty 
responsibilities by supporting schools in not only meeting the demands 
of 21st century teaching and learning, but also building the capacity 
of tribal education departments to manage their own BIE-funded school 
systems.
S. 2580, Reforming American Indian Standards of Education (RAISE) Act
    A year ago, this Committee held a hearing on the BIE Blueprint 
recommendations for reform. I am pleased to report that BIE's reform 
implementation is under way. As we work together with our tribes, 
teachers, administrators, students, and families, we remain inspired by 
the dignity, strength, pride, and resolve in the tribal communities to 
do what*ever it takes to give their children the education system they 
need and deserve.
    The BIE reforms embody the ideas contained in S. 2580, focusing on 
improved student performance and accountability. The BIE reforms will 
address major components of S. 2580. Like S. 2580, BIE's redesign 
locates decisionmaking authority for the educational and operational 
support functions, including school facilities management, with the 
Director of BIE. The restructure reduces the current bureaucracy so 
schools can leverage resources and talent to raise student academic 
performance, and enables principals to focus on their primary mission 
of instructional leadership. The BIE's goal is to be a more responsive 
organization that provides resources, guidance, and services to tribes 
so that they can help their students attain high levels of achievement.
    S. 2580 and the Department's ongoing reform seek to bring not only 
the education functions under the Director of BIE, but all the school 
support functions as well. The BIE reform does this without creating an 
agency-level organization, as BIE will leverage investments from the 
BIA and other Departmental resources such as data systems and 
databases, consolidated administrative or ``back-room'' functions; 
reporting processes, and overall Department-wide policy and oversight 
functions.
    During the reform effort, the Department considered creating a BIE 
agency. Based on tribal consultations and review, we concluded that a 
full BIE agency is not the best-fit organizational improvement model. 
Much of this conclusion is based on the fact that the higher percentage 
of BIE schools are Tribally operated and that percentage is likely to 
increase.. Tribes will continue to run their schools, with BIE 
providing technical assistance, services, support, and required 
compliance and accountability responsibilities.
    The Department has the following concerns with S. 2580.

  <bullet> The current Departmental reorganization right-sizes BIE and 
        incorporates construction and maintenance functions while 
        avoiding the creation of a full agency and the additional FTEs 
        which would be required under that model. Under the Assistant 
        Secretary for Indian Affairs, education will remain a critical 
        component of tribal community development and support, with a 
        coordinated and collaborative approach to the delivery of 
        programs and services. Similar to the Department of Defense 
        schools, which are a field activity under the Assistant 
        Secretary for Personnel and Readiness, BIE students and 
        families benefit from the broader community portfolio of the 
        Assistant Secretary for Indian Affairs.

  <bullet> Creation of a new agency could take years to fully 
        implement. BIE is currently implementing the reform and is on 
        track to transition much of the reform this year. If S. 2580 
        were to become law, undoubtedly, Indian Affairs or the 
        Department will need to engage in tribal consultation in 
        accordance with Executive Order 13175.. Consultation has been a 
        longstanding foundation to provide the dialogue between the 
        Federal Government and tribal nations. The strategy, plan, 
        resources, and impact on schools will be areas on which tribes 
        will likely and rightly want to provide input.

  <bullet> The bill does not appear to include the Education Resource 
        Centers (ERCs) and the School Improvement Teams, which are 
        already in the process of being implemented. The ERCs and 
        School Improvement Teams provide resources directly to 
        teachers, principals, and students, which is critical. School 
        systems that have achieved significant improvement in student 
        outcomes have organized their school improvement specialists to 
        be closer to schools. These experts can work frequently and 
        consistently with the school community to identify and apply 
        the interventions that will work best for their population.

  <bullet> The bill could increase costs significantly. S. 2580 is 
        unclear as to what functions would remain with the Department 
        as a whole versus the IEA. There is also the potential of 
        adding more costs by establishing an IEA with its own parallel 
        institutions.

    For too long, tribes did not have a voice in the direction of the 
BIE schools on their reservations. A foundational principle of the 
Blueprint is that the Federal Government is fostering tribes to run 
their BIE schools with the resources and support that are necessary to 
have successful students in those schools. This reform implementation 
accomplishes many of the goals of S. 2580 without the increased expense 
or implementation time that establishing an independent agency would 
entail. I am happy to answer any questions the Committee may have.

         s. 2711, the native american education opportunity act
    Good afternoon, Chairman Barrasso, Vice Chairman Tester, and 
members of the Committee. My name is Larry Roberts, and I am the Acting 
Assistant Secretary for Indian Affairs at the Department of the 
Interior (Department). I appreciate the opportunity to testify on 
behalf of the Department on S. 2711, the Native American Education 
Opportunity Act.
    The United States' trust and treaty obligations include the 
education of Native youth. The Nation's history in this respect has 
often fallen short. Beginning in the 19th century, the United States 
government implemented a policy of placing Native youth in boarding 
schools, which had devastating impacts on Native children and tribal 
communities. During the 20th Century, Native children and communities 
endured Federal policies of relocation and termination. Since the 
1970s, the United States has repudiated those failed policies of 
earlier eras and replaced them with policies promoting tribal self-
determination and self-governance.
    Through legislation, Congress has enabled the Department to 
contract with Tribes to deliver Federal services relating to education. 
Today, Tribes run nearly 70 percent of the BIE funded schools. Whether 
tribally or BIE-operated, over 80 percent of the schools are in rural 
areas. The rural setting presents additional challenges in providing 
high-quality education to American Indian students in BIE schools.
    S. 2711 would expand opportunities for Native children by providing 
funding for an Education Spending Account (ESA), ``an account 
controlled by a parent from which the parent may purchase goods and 
services needed for the education of the student.'' These ESAs could 
include spending for private school tuition, or church-operated 
schools, for example. 90 percent of federal funding for each student 
could be transferred to the non-BIE school. Although S. 2711 may 
provide options for the parents of BIE students, S. 2711 impacts Tribes 
and those students who remain in BIE schools. S. 2711 would essentially 
transfer Federal funds from tribally and BIE-operated schools to non 
BIE schools. For these reasons, the Department cannot support S. 2711.
The Bureau of Indian Education
    The BIE supports education programs and residential facilities for 
Indian students from federally recognized tribes at 183 elementary and 
secondary schools and dormitories. The BIE serves approximately 8 
percent of Native youth, while public schools serve 90 percent. 
Currently, the BIE directly operates 54 schools and dormitories, while 
51 tribes operate the remaining 129 schools and dormitories through 
grants or contracts with BIE. During the 2015-2016 school year, BIE-
funded schools served approximately 48,000 individual American Indian 
students and residential boarders in grades K-12. Approximately 3,800 
teachers, professional staff, principals, and school administrators 
work within the 54 BIE-operated schools. In addition, approximately 
twice that number work within the 129 tribally-operated schools.
    The BIE and tribes are confronted with unique and urgent challenges 
in providing high-quality education to Indian students. Based on a 
recent BIE rural school analysis, 161 BIE schools are located in 
communities with a population of 10,000 or less. The average distance 
of BIE schools to the closest urban center is 164 miles, and only five 
BIE schools are located within an urban center. The rural and remote 
locations of the schools are most often in areas of concentrated 
poverty with insufficient housing and services. The geographical 
dispersion of the schools makes it difficult to achieve economies of 
scale in terms of staffing for both instructional and school 
operational support. Federal funding addresses infrastructure needs 
such as water, roads, fire departments, housing, and high-speed 
broadband access. When taken together, these factors and the unique 
educational and instructional-support requirements have contributed to 
the higher than average U.S. public school per-pupil costs.
S. 2711 Native American Education Opportunity Act
    Along with the sponsors of S. 2711, the Department shares the 
concerns and goals of improving the lives of Indian students by 
providing a high-quality education. The Department, however, cannot 
support S. 2711. The vast majority of BIE schools are operated by 
Tribes and the students served are located in some of the most rural 
areas in the United States. While transfer to an urban private school 
may be an option for a few students, doing so would result in further 
financial strain on the BIE system, including tribally operated 
schools. S. 2711 would directly impact the 51 tribes that have opted to 
run the 129 tribally controlled schools. ESA funding provided to an 
eligible student would decrease by 90 percent the funding available to 
the BIE school on behalf of that student.
    Additionally, we are concerned with how S. 2711 would impact tribal 
languages, culture, and history. Many tribal and BIE-operated schools 
incorporate Native language, culture, and history into their curricula. 
Federal funding currently supports these efforts, and if funding is 
reduced for tribally and BIE-operated schools, tribes will need to make 
difficult decisions on how to address those budget challenges. 
Additionally, the Department is unaware of similar efforts by private 
schools to promote Native language, culture, and history; this could 
mean that many private schools may lack the capacity to address this 
crucial area of Indian student wellness and achievement. Further, 
tribes have advocated funding for tribal support costs, facilities 
operations and maintenance, and school construction to implement their 
vision for tribal education. It is unclear how S. 2711 would impact 
this funding.
    Finally, while S. 2711 provides parents with a choice, it may be a 
difficult one for many families. As a practical matter, private schools 
are primarily located outside of Indian reservations. As I mentioned, 
the average distance of BIE schools to the closest urban center is 164 
miles. In evaluating this legislation, the Department conducted a 
preliminary review of private school locations in Arizona, and found 
that there are 291 private schools in Arizona but only six \1\ are 
located on Indian reservations. S. 2711 would create an incentive for 
families of BIE students to move to urban centers or separate the BIE 
student from the family to attend an off-reservation private school.
---------------------------------------------------------------------------
    \1\ Arizona's Six Indian Reservation-based Private Schools: 1) Hopi 
Mission School (Kykotsmovi), 2) Living Word Academy (Sells--Tohono 
O'odham), 3) Navajo Christian Preparatory Academy (Rock Point), 4) St. 
Michael Indian School (St. Michael--Navajo), 5) St. Michaels 
Association for Special Education (St. Michaels--Navajo Nation), 6) 
Immanuel Mission School (Teec Nos Pos--Navajo Nation). (National Center 
for Educational Statistic's Private School Universe Survey data (PSUS) 
for 2013-2014.)
---------------------------------------------------------------------------
    The Department agrees with expanding opportunity for Native 
American children through additional options in education, but those 
options should promote tribal schools, not private schools. Thank you 
for the opportunity to testify today. I am happy to answer any 
questions the Committee may have.

    The Chairman. Thank you very much, Mr. Roberts.
    We will next hear from State Senator Carlyle Begay. Thank 
you very much for being with us today.

  STATEMENT OF HON. CARLYLE W. BEGAY, ARIZONA STATE SENATOR, 
                     LEGISLATIVE DISTRICT 7

    Mr. Begay. Good afternoon. Thank you, Chairman Barrasso, 
Vice Chairman Tester, and members of the Committee on Indian 
Affairs. Thank you very much for giving me this opportunity to 
testify today regarding one of our Nation's most underserved 
student populations, American Indian and Alaska Native 
students.
    I also will talk today about S. 2711, the Native American 
Education Opportunity Act and how it will provide additional 
educational options in certain States for Native American 
students served today by funds from the Bureau of Indian 
Education.
    By way of introduction, my name is Carlyle W. Begay, State 
Senator for Legislative District 7 in the great State of 
Arizona.
    [Native Language Introduction].
    Arizona has a rich Native American history which spans 
centuries and today is home to 22 federally-recognized Native 
American tribes. More specifically, Arizona has the second 
largest Native American student population in the United 
States.
    Before I talk about the Native American Education 
Opportunity Act, it is important to point out that for so many 
of us in this room, Indian education is very personal. In fact, 
when I was younger, I attended a BIE school in Kayenta, Arizona 
on the Navajo Nation.
    At that time, attending boarding school was the norm for 
many Native American students like me. In fact, the first 
boarding school off reservation was Carlisle Indian School. I 
remember not understanding at the time why I had to attend that 
school or why I had to stay there. However, my parents, like 
many other tribal parents, believed this school was the best 
option because it was the system that the Federal Government 
established for educating American Indians.
    My experience, and many others like mine, is the perfect 
example as to why America should not focus on the systems of 
education, but rather ensuring access to educational 
opportunities that parents want and children need.
    Today, the United States is working to replicate and 
replace failed assimilation policies, including education 
policies, by promoting tribal self-determination and self-
governance. Empowering Native American families to make crucial 
education decisions for their children is the true essence of 
self-determination and self-empowerment.
    The importance of maintaining the United States' trust 
responsibility and treaty obligations is more important than 
ever, but those obligations were penned more than 150 years 
ago, and nothing should stay the same for 150 years.
    We by no means dissolve that obligation; instead it is 
imperative that we build upon that obligation. The achievement 
gap for Native American students in Arizona and across this 
country is very real and the solutions are multi-dimensional 
and complex. They include a lack of empowerment options.
    After 150 years, we cannot solve all the needs and 
priorities of entire school systems, including BIE overnight. 
We can create opportunities now for Native American families 
through policies like the Native American Education Opportunity 
Act. We must give thanks to many tribal leaders who came before 
us much like the great Chief Manuelito of the Navajo Nation in 
the era we now term Hweeldi or The Long Walk.
    My people were marched from confined areas, the Navajo 
Nation, to an area in New Mexico. At that time, I believe our 
tribal leaders did not understand what education really meant. 
Today, it is time for us to explore what is education today in 
our Native American communities.
    I recently spoke to a high school class within an Arizona 
tribal community. I will never forget the response of a student 
when I asked, ``What are your goals and your ambitions in life? 
What are your plans after high school?'' The student said, 
``Why does it matter and why do you care? No one cares about me 
or my people so what does it matter what I want to do or what I 
end up doing?''
    As disheartening as it is, this student represents perhaps 
the feelings of many of other Native American children living 
on reservations. This teen carries the burden of hopelessness 
so common in modern day reservation life.
    I encourage all of us here today to look at every option in 
our efforts to improve educational opportunities so that kids 
now are prepared for jobs of today and tomorrow. Last year, we 
implemented we implemented a new program called the Empowerment 
Scholarship Account in Arizona. That program opened options for 
Native American families in Arizona's 22 tribal communities.
    In four weeks, in a special enrollment period with no 
outreach or education, almost 300 Native American families 
applied for this program but denied in this program were 
children attending at that time federally-funded schools.
    Why should students attending federally-funded schools not 
have the option to be empowered or the option to have better 
quality options available to them? Many would argue why these 
options are not available.
    I believe the Native American Education Opportunity Act is 
a step in the right direction. I thank Senator McCain for his 
leadership and for listening to many Native American families 
in Arizona to explore these options and essentially not make it 
about the systems of education but simply like the young kid in 
Arizona who said, why do you care, giving him the option and 
opportunity to explore what he thinks is in the best interest 
of his educational opportunities.
    With that, Mr. Chairman and members of the Committee, I am 
open for questions.
    [The prepared statement of Mr. Begay follows:]

  Prepared Statement of Hon. Carlyle W. Begay, Arizona State Senator, 
                         Legislative District 7
    Thank you, Chairman Barrasso, Vice Chairman Tester and members of 
the Committee on Indian Affairs. Good afternoon and thank you for 
inviting me and giving me this opportunity to testify today regarding 
one of our Nation's most underserved student populations: American 
Indian and Alaska Native students. I will also talk today about S. 
2711''Native American Education Opportunity Act'' and how this Act will 
provide additional education options in certain states for Native 
American students served by schools funded by the Bureau of Indian 
Education (BIE).
    By the way of introduction my name is Carlyle W. Begay, State 
Senator for Legislative District 7 in the Great State of Arizona. 
Arizona has a rich Native American history that spans centuries and 
today is home to 22 federally recognized Native American tribes with 
the third largest population of Native Americans in the United States. 
More specifically, Arizona has the second largest Native American 
student population in the United States.
    Before I talk about the ``Native American Education Opportunity 
Act'' it is important to point out that for so many of us in this room 
today this work in Indian education is very personal. In fact, when I 
was younger I attended a BIE boarding school in Kayenta, Arizona on the 
Navajo Nation. At that time, attending boarding school was the norm for 
Navajo students, not just in 1860 or the early 1900's, but also all the 
way up to 1985 and beyond. I attended this boarding school over a 
hundred years after the first Native American students began attending 
Carlisle Indian School, the first boarding school off-the reservation 
for Native American students. I remember not understanding why I had to 
attend that school or why I had to stay there. However, my parents, 
like many other Tribal parents, believed this school was the best 
option because it was the system that the federal government 
established for educating American Indians. My experience, and the many 
others like mine, is the perfect example as to why America should not 
focus on the systems of education, but rather ensuring access to 
educational opportunities that children need and parents want.
    Today, the United States is working to replace failed assimilation 
policies, including education policies, by promoting tribal self-
determination and self-governance. Empowering Native American families 
to make crucial education decisions for their children is the true 
essence of self-determination and self-empowerment.
    The importance of maintaining the United States' trust and treaty 
obligations is more important than ever, but those obligations were 
penned more than 150 years ago, nothing should stay the same for 150 
years. We by no means dissolve that obligation, instead it's imperative 
that we build upon that obligation. The achievement gap for Native 
American students in Arizona and across this country is very real and 
the solutions are multi-dimensional and complex. They include a lack of 
both community and parental involvement and, in some cases, a general 
belief that education is not important in many tribal communities. It's 
no wonder that tribal parents never embraced the government's system of 
education because it was never the true Native American system of 
education.
    After 150 years we cannot solve all the needs and priorities of 
entire school systems, including BIE, overnight but we can create 
opportunities now for Native American families through policies like 
the Native American Education Opportunity Act.
    There's no doubt my elders and ancestors made great sacrifices to 
get us to where we are today. I was born and raised on the Navajo 
Nation, one of eight tribal communities that I represent as an Arizona 
State Senator. My people's history and traditions have taught me 
cultural relevancy and the importance of working together to continue 
the advancement and purpose of those I serve.
    We must give thanks to the leaders that served before us--like the 
great Navajo Chief Manuelito--who led the Navajo people home from the 
brink of extinction. Hweeldi or The Long Walk, which was much like the 
Cherokee's Trail of Tears, was a harsh experience for the Navajo 
people. Two thousand of my Navajo ancestors perished during Hweeldi as 
they were starved into submission and forced to surrender. They were 
then marched to a confined area so that the Spanish settlers could have 
the finest grazing land and mineral-rich areas in Arizona.
    The education being provided to students at tribal schools is akin 
to modern day Hweeldi. While our ancestors suffered and were forced off 
their lands, the reverse effect has taken hold--our students suffer 
while remaining on our lands as they are required to attend low 
performing schools, resulting in poor educational outcomes and limited 
opportunities.
    I recently spoke to a high school class within a Arizona tribal 
community. I will never forget the response of a student when I asked, 
``What are your goals and aspirations in your life? What are your plans 
after high school?'' The student said, ``Why does it matter? Why do you 
care? No one cares about me or my people so what does it matter what I 
want to do or what I end up doing?''
    As disheartening as it is, this student represents perhaps the 
feelings of many of our Native American children living on 
reservations. He feels invisible, unimportant and alienated. This teen 
carries the burden of hopelessness so common in modern day reservation 
life.
    That exchange forced me to take a deeper look at how we can better 
educate our Native American kids. The sad reality is that in Arizona, 
we as Native people are dead last in both math and reading proficiency 
scores according to the latest Annual Report on Indian Education 
released by the Arizona Department of Education.
    Across America, Native Americans have the lowest graduation rate of 
all other ethnicities at 67 percent. Arizona fairs even worse with a 
graduation rate of 64 percent, the lowest in the state. These 
statistics make one thing clear--at least in the area of education, the 
Federal Government has failed to live up to its responsibilities to 
Indian children. This is why I was inspired to help expand school 
choice on tribal lands and offer new educational options to our 
students. Empowering tribal parents' with the ability to customize 
their child's education or obtain access to new quality options is one 
way to build up Native American communities through education.
    I encourage all Native American parents, educators and tribal 
leaders across the nation to begin shaping our own future on our terms. 
We are in a time where we can raise our children to find their passion 
to be a doctor, an engineer, a lawyer or the next Navajo Code Talker. 
In order to do this, we need to draw in the nation's best schools in 
partnership with our tribal communities, to create cutting-edge 
schools, schools that incorporate our culture and languages, schools 
who employ the best teachers and the best administrators.
    No stone should be left unturned in our efforts to improve 
educational outcomes so that our kids are prepared for jobs of today 
and jobs of tomorrow.
    Last year a new school choice law went into effect in Arizona 
opening up the Empowerment Scholarship Account program universally to 
Native American families living on any of the state's 22 reservations. 
There was so much interest, that we fast tracked the bill 
implementation and hundreds of families applied within a matter of 
weeks. Unfortunately, some of the families who hoped to be on the 
program did not qualify because their children were in BIE funded 
schools. Why should this opportunity be limited to families attending 
state public schools and not be afforded to those attending federally 
funded schools? Sen. McCain understood the plight of these BIE families 
and immediately offered to fight for them.
    The availability of Empowerment Scholarship Accounts gives parents 
the power to choose the education that best fits their child's needs. 
The Native American Education Opportunity Act would give the parents of 
students attending BIE schools and living within tribal communities in 
Arizona and in three other states where ESA programs are currently 
implemented the option to take their child out of that school and use 
any of the ESA choices available to them in their home state. ESA 
choices may include attending a private school, online curriculum, 
tutors, home school and other education opportunities. Right now ESAs 
would provide options to parents like on-line private school programs 
or they would be able to attend the few private schools that are 
already open on the reservations. Allow students to enroll in online 
learning programs or enroll in designated educational therapies or 
services (especially for kids with special needs or learning 
disabilities). Or to seek tutoring services.
    This Act would allow Native American families to tailor their 
child's education because one size does not fit all.
    There are 185 BIE schools in the nation. Nearly 5 out of 10 
students attending these schools will not graduate high school. What if 
we could give ESAs to those students who would not have made it to 
graduation otherwise?
    This is not saying that we need to do everything we can to support 
and improve our BIE or public schools. In fact, many of our public and 
BIE schools across Arizona are doing the best they can with the limited 
resources they have.
    On the reservation, we don't have the luxury of fighting over 
educational systems vs. school choice options. We are in an on-going 
crisis when it comes to educating our kids and we welcome any option 
when it comes to educating our kids.
    I don't expect ESAs to be the whole solution to fixing education on 
or off tribal lands, but myself and other tribal leaders do believe 
programs like this can spark change. We must build a better future for 
our Native American families and I believe empowering these parents is 
a crucial first step.
    I ask you today for your help in sending a positive message to 
tribal leaders, reservation communities and that student who asked, 
``Why do I matter?'' Let's work together to say, ``We will end this 
modern day Hweeldi. We will learn from our past mistakes. We will act 
today to do whatever it takes to rescue our Native American students in 
crisis because they DO matter.''

    The Chairman. Thank you so much, Senator Begay, for your 
comments. I appreciate it. We will get to questions in a few 
moments.
    Next, Ms. Whitefoot.

  STATEMENT OF PATRICIA WHITEFOOT, PRESIDENT, NATIONAL INDIAN 
                     EDUCATION ASSOCIATION

    Ms. Whitefoot. Good afternoon, Chairman Barasso and 
distinguished Committee members.
    Let me begin by saying I appreciate the time you took to 
acknowledge Chief Joe Medicine Crow, a good man. Thank you very 
much.
    It is an honor to be invited to provide testimony before 
the Senate Committee on Indian Affairs. The National Indian 
Education Association commends Congress, particularly the 
members of this Committee, for ensuring that tribal priorities 
were a focus of the Elementary and Secondary Education Act 
Reauthorization and appreciate this Committee's dedication to 
addressing the state of emergency for Indian education.
    I also want to acknowledge Chairman Barrasso, Vice Chairman 
Tester, and Senator McCain for introducing legislation to 
improve the educational outcomes of Native students. We are 
encouraged by the bipartisan efforts and commitment to our 
Native children.
    On a more personal note:
    I am a member of the Yakima Nation. My English name is 
Patricia Whitefoot. I have worked in education for over 40 
years. My career covers preschool to higher education. I began 
my years in education as a parent volunteer in Head Start.
    Founded in 1969, the National Indian Education Association 
represents Native students, educators, families, communities, 
and tribes. As a member driven organization, NIEA looks to our 
constituents for resolutions which guide policy at the Federal 
level.
    Although NIEA membership has not brought forth resolutions 
focused on all the legislation being proposed today, we 
appreciate the opportunity to provide our viewpoints on Senate 
bills 2304, 2468, 2580, and 2711. NIEA would like to focus on 
providing viewpoints that build from the legislation presented 
today.
    NIEA supports both Senator Tester's bills, 2304 and 2468, 
and has provided suggested amendments to strengthen the 
language of both in our testimony.
    NIEA also appreciates Chairman Barrasso's initiative to 
make BIE a more efficient agency through the RAISE Act which is 
the natural next step in BIE's current reform. Our membership 
supports the BIE reorganization as long as congressional 
oversight is provided throughout the process as highlighted in 
our Resolution 2014-11.
    The importance of the proposed Indian education agency 
includes the opportunity for the BIE to establish and fulfill 
its own budget through the appropriations process which NIEA's 
membership has continuously voiced support through resolutions 
like 2014-17.
    Identifying solutions to best support our students locally 
is a NIEA priority and we are looking forward to working with 
this Committee to further develop them.
    Our concerns regarding the RAISE Act include the following. 
One, how will tribal input, including school leadership, be 
incorporated? Second, what funding levels will be needed to 
make this move? Three, will these requests be new funds? Four, 
how will the RAISE Act align with the current BIE 
reorganization process?
    NIEA acknowledges that a progressive first step in this 
process is the elevation of the BIE Education Director position 
from a career to a political appointee. This legislation is an 
opportunity to take a step forward and build from Congress' 
focus on Indian education. We look forward to hearing from 
tribes and tribal schools regarding this change.
    Finally, NIEA understands Senator McCain's bill, 2711, is 
based on providing equal access to BIE students. However, we 
are concerned with the implications of this bill. Currently, 
NIEA does not have a resolution specifically for this proposal.
    We would like to highlight some of our initial concerns and 
expect to continue this conversation about the implications of 
the Native American Education Opportunity Act with a focus on 
what is best for our students.
    Our concerns are, first, protecting self determination. 
Both Congress and this Committee have shown tremendous 
bipartisan support for increasing and promoting tribal 
sovereignty within the education system.
    This particular bill takes away funding from BIE-operated 
schools and from schools directly operated by tribes. In 
addition, the schools that are eligible to receive tribal 
education dollars are not required to consult with tribes or to 
ensure that Native students are receiving education grounded in 
their culture.
    This Committee has continuously supported tribally-driven 
education. This bill seems to work against the tribal school 
model that serves our students well.
    Second, we are concerned about the potential negative 
effects on the overall BIE infrastructure. We are concerned 
this legislation will negatively affect the whole BIE 
infrastructure. The cost of educating a student attending a BIE 
school is higher than the average per pupil expenditure for 
students attending public schools because it is not only a 
direct educational service cost but also encompasses 
transportation, housing and much more.
    If BIE students leave to attend non-BIE schools, then those 
who remain will experience exacerbated educational disparities.
    Third, is academic performance. Research shows that 
academic performance of Native students improves when they 
receive tribally-driven education. Continued investment and 
support of community-driven initiatives and schools is 
warranted.
    In conclusion, I would like to thank the Committee for 
holding this hearing. By shining a much needed light on the 
issues facing Native education, you continue to raise awareness 
and garner support for critical issues in Indian country on 
behalf of our students.
    Working together we are confident we can build 
collaborative relationships necessary to strengthen tribal self 
determination in education. I would like to submit our written 
testimony including supporting resolutions for the record.
    I look forward to any questions you may have.
    [The prepared statement of Ms. Whitefoot follows:]

 Prepared Statement of Patricia Whitefoot, President, National Indian 
                         Education Association
Introduction
    Good morning Chairman and distinguished committee members. It is an 
honor to be invited to provide testimony before the Senate Committee on 
Indian Affairs. I would like to begin by thanking the Committee for its 
continued efforts to improve the education services delivered to 
American Indian and Alaska Natives students. I also want to acknowledge 
Chairman Barasso, Vice Chairman Tester, and Senator McCain for 
introducing legislation specific to improving the educational outcomes 
of Native students. We are encouraged by the bi-partisan efforts and 
the dedication to our Native children.
    Founded in 1969, The National Indian Education Association (NIEA) 
represents Native students, educators, families, communities, and 
tribes. NIEA's mission is to advance comprehensive, culture-based 
educational opportunities for American Indians, Alaska Natives, and 
Native Hawaiians. As the premiere organization advocating for Native 
students, NIEA works to achieve education equity and excellence, to 
ensure all students are provided a high-quality academic and culture-
based education.
    As a member driven organization, NIEA looks to our constituents for 
resolutions which are vital forms of organizational policy guiding NIEA 
at the federal level. Although NIEA membership has not brought forth 
resolutions focused on specific new legislation, NIEA is prepared to 
offer recommendations supported by evidence-based data. Comments and 
recommendations below provide essential strategies helping education 
systems evolve and meet the unique needs of Native students.
Federal Responsibility to Native Education
    Since its inception, NIEA's work has centered on reversing negative 
trends within Native education, a feat that is possible only if the 
Federal Government upholds its trust responsibility to tribes. 
Established through treaties, federal law, and U.S. Supreme Court 
decisions, this relationship includes a fiduciary obligation to provide 
parity in access and equal resources to all American Indian and Alaska 
Native students, regardless of where they attend school. Under the 
Federal Government's trust corpus in the field of Indian education, it 
is important to state that the obligation is a shared trust among the 
Administration and Congress for federally-recognized Indian tribes.
    To the extent that measurable trust standards in Indian education 
can be evaluated, NIEA suggests this Committee refer to the 
government's own studies encompassing Native test scores, treaty-based 
appropriation decreases, and Government Accountability Office (GAO) 
Reports, among other reports, which illustrate the continued inability 
of the Federal Government to uphold the trust responsibility and 
effectively serve our students.
    Education is the only way to break the cycle of poverty within our 
reservation and urban communities. NIEA urges Congress to fulfill its 
trust responsibility to America's most vulnerable children by ensuring 
they have access to educational resources they deserve.
The State of Native Education
    The Elementary and Secondary Education Act of 1965 (ESEA) is the 
largest civil rights education law supporting low-income schools with 
the funding necessary to provide high-need students with access to an 
excellent education. With the recent reauthorization, the newly renamed 
Every Student Succeeds Act (ESSA) marks a new era of state and local 
innovation to best support our students and has received a tremendous 
amount of bipartisan support for Native education specifically. We 
commend Congress particularly the members of this Committee for 
ensuring that tribal priorities were a focus of the reauthorization.
    As we celebrate the signing of the ESSA law, we must continue to 
shed light on the fact that Native education continues to be in a state 
of emergency. As Interior Secretary Sally Jewell has stated, ``Indian 
education is an embarrassment to you and to us. We know that self-
determination and self-governance is going to play an important role in 
bringing the kind of academically rigorous and culturally appropriate 
education that children need.'' \1\ Students attending BIE funded 
schools experience some of the worst educational disparities across the 
country, even though the BIE is one of two education systems for which 
the Federal Government has direct responsibility.
---------------------------------------------------------------------------
    \1\ Hearing before the Committee on Indian Affairs, S. Hrg. 113-92 
(May 15, 2013).
---------------------------------------------------------------------------
    While this Committee is cognizant of the educational disparities 
Native youth experience, NIEA highlights a few overwhelming statistics:

  <bullet> Research has shown that by age 2, American Indian students 
        begin to fall behind national scores in tests of specific 
        cognitive skills in vocabulary, listening comprehension, 
        matching and counting.

  <bullet> By age 4, smaller percentages of American Indian children 
        demonstrate age-appropriate language, literacy, mathematics, 
        and color-identification skills, compared to the total 
        population of children.

  <bullet> In 2012, 17 percent of Native students age 25 and older held 
        at least a bachelor's degree in comparison to 33 percent of 
        White students.

  <bullet> In 2015, the national high school graduation rate reached an 
        all-time high at 82 percent, while American Indian and Alaska 
        Native students experienced a stagnant rate of 69.6 percent. 
        Unfortunately, Native students, attending BIE funded and 
        operated schools experienced even lower graduation rates at 53 
        percent, nearly 30 percent below the national average. \2\
---------------------------------------------------------------------------
    \2\ National Center for Education Statistics, Institute of 
Education Sciences, United States Department of Education. 2015. The 
Condition of Education (NCES 2015-144). http://nces.ed.gov/programs-/
coe/indicator_coi.asp

  <bullet> A recent GAO report released in March 2016 highlighted the 
        lack of national information on safety and health deficiencies 
        at BIE facilities, which is highly problematic considering the 
        dire safety hazards at certain schools with the potential to 
        seriously harm students and teachers at these facilities. \3\
---------------------------------------------------------------------------
    \3\ See GAO, Key Actions Needed to Ensure Safety and Health at 
Indian School Facilities, GAO-16-391T (Mar. 16, 2016).

    Despite the small federal legislative successes, these statistics 
and historical background demonstrate the critical need to transform 
Native education systems through innovative legislation discussed 
today.
Recommendations
Safe Academic Facilities and Environments for Tribal Youth Act (S. 
        2468)
    Research has shown that critical investments in BIE are needed in 
overlooked areas such as school construction and technology. Many 
Native students attempt to make academic gains in dilapidated, below-
standards school facilities. Abandoning school construction funding, in 
particular, has been extremely detrimental to Native youth, as the GAO 
has reported that better school facilities are associated with better 
student outcomes. \4\ As such, NIEA appreciates Senator Tester's 
innovative proposal to support construction efforts for tribal schools 
through a demonstration program. By allowing tribes to receive grants 
directly for schools on the construction list, tribes may not be forced 
to wait decades for the BIE to handle construction.
---------------------------------------------------------------------------
    \4\ See GAO, School Facilities: Physical Conditions in School 
Districts Receiving Impact Aid for Students Residing on Indian Lands, 
GAO-10-32 (Oct. 29, 2009).
---------------------------------------------------------------------------
    NIEA membership has consistently stated their support for new 
school construction. NIEA Resolution 2011-18, which requested the BIE 
and Federal Government to appropriate full funding for the tribally 
controlled schools' facilities program, remains a standing request of 
our organization, until all of our schools provide safe environments 
for Native students. As such, NIEA supports the SAFETY Act. We provide 
the following suggested amendments to strengthen the language.
    Suggested Amendments:

        1. Proposed Language
        Section 545(a)(2)(D) is amended by adding ``residing on tribal 
        lands'' in subsection D.
        NIEA believes it is important to authorize funding for 
        inadequate housing for tribal educators. We understand the 
        eligibility requirement to be allocated to housing for full-
        time teachers and administrators at BIE-funded schools and 
        public schools with at least 25 percent Indian students. 
        However, given the disparate need on reservation and tribal 
        lands, NIEA recommends prioritizing funding to these schools 
        and then expanding this opportunity to schools residing on non-
        tribal lands.

        2. Proposed Language
        Section 3(5)(B) that the Indian tribe shall be required to 
        contribute towards the cost of the construction a tribal share 
        equal to at least 25 percent of the cost; is amended by 
        deleting it entirely.

    Not all tribes have the capacity or funding to invest in 
construction. Given the trust responsibility the U.S. government has 
with tribal nations, providing construction costs to repair facilities 
is an obligation that has yet to be fulfilled. As such, tribes should 
not be required to contribute 25 percent of these costs.
    Lastly, since there is no source of funding identified for these 
grants, NIEA reiterates its FY 2017 budget request to Congress to fully 
appropriate construction costs. In addition, we request that the 
Committee urge the Department of Interior to release the school 
construction list immediately in order to move forward.
Tribal Early Childhood, Education, and Related Services Integration Act 
        (S. 2304)
    Research supports that integrated, comprehensive, and culturally 
appropriate education, improves the lives and opportunities for Native 
youth overall. This kind of culture-based education is especially 
important at an early age. As such, NIEA appreciates Senator Tester's 
bill to provide for a new demonstration program which aims to 
coordinate different kinds of early childhood and education services 
provided to tribes and tribal communities. The emphasis on community 
engagement and ``family-based'' education programs is vital to 
supporting our children and our communities.
    Several NIEA resolutions (2013-13, 2013-12, 2013-09) support 
incorporating language and culture into a student's education. As such, 
we support Senator Tester's bill to provide greater coordination 
amongst various early childhood programs and services. We provide the 
following suggestions to strengthen the language.
    Suggested Revisions:

        1. Consolidation of funds should not result in any decrease to 
        other Indian Head Start programs. The few early learning 
        services provided to Native children have limited resources. 
        This piece of legislation has not allocated new funding for the 
        demonstration program, as such, there is the potential that 
        there may be a decrease in funding from existing Indian Head 
        Start programs.

        2. The importance of removing supplement and not supplant 
        restriction is crucial for Native communities that would like 
        to take advantage of the proposed program.
        Section 805A(c)(5)(B)(ii) prevents the Secretary from waiving 
        ``any specific statutory requirement for recipients of Federal 
        funding related to . the use of Federal funds to supplement, 
        and not supplant, non-Federal funds.'' Indian Head Start 
        programs often have difficulty meeting non- Federal share 
        requirements due to the nature of tribal funding and the types 
        of contributions that can be counted toward the non-Federal 
        share of funds. This restriction will make it difficult to 
        ensure optimal success of any tribal early childhood 
        demonstration program.

Reforming American Indian Standards of Education Act (S. 2580)
    NIEA continues to urge for transparency in the design and execution 
of the BIE reorganization specifically as it relates to the explicit 
incorporation of tribal participation, including school leadership. We 
have submitted a letter in support of the BIE's reorganization with 
guidance accordingly. NIEA understands the RAISE Act as the next 
natural step in BIE's current reform. Our membership supports the BIE 
reorganization as long as sufficient congressional oversight is 
provided throughout the process as highlighted in Resolution 2014-11.
    The benefits of the proposed Indian Education Agency include the 
opportunity for the BIE to establish its own budget and work for 
appropriations towards that budget. Currently, BIE's budget requests 
must go through the Bureau of Indian Affairs--this process often 
dilutes education requests. BIE's autonomy to function within its own 
jurisdiction will enable the agency to better meet the needs of Native 
students attending BIE schools. NIEA's membership has voiced the need 
for this through Resolution 2014-17, which requests the establishment 
of a BIE Tribal Task Force comprised of tribal leaders and federal 
agency representatives to study the funding constraints BIE schools 
experience as well as investigate appropriate measures to be taken in 
order to address such concerns culminated into a final report.
    As you all know, the BIE reorganization has been predominantly 
focused on administration in Washington DC and not as much on the 
students who will be most affected. Identifying solutions to best 
support our students locally is a priority that NIEA has and is looking 
forward to working with this Committee to further develop solutions 
that serve them best. In the meantime, we also have the following 
questions regarding the RAISE Act:

        1. How will tribal input, including school leadership be 
        incorporated?
        2. What funding levels will be needed to make this move? And 
        will these requests be new monies?
        3. How will the RAISE Act align with the current BIE 
        reorganization?

    Lastly, while the Committee is considering the RAISE Act, NIEA 
acknowledges that a progressive first step in this process is the 
elevation of the BIE Director position from a career to a political 
appointee. This legislation is an opportunity to take a step forward in 
this direction along with building from Congress' focus on Indian 
education. We look forward to hearing from tribes and tribal schools 
regarding this change.
Native American Education Opportunity Act (S. 2711)
    NIEA thanks Senator McCain for putting forth legislation that would 
include students attending BIE schools to have an alternative 
educational option in Arizona. However, currently NIEA does not have a 
resolution specific for this proposition. As such, we would like to 
highlight some of our initial concerns and expect to continue this 
conversation about the implications of the Native American Education 
Opportunity Act with a focus on what is best for our students.
    Under the Arizona-Empowerment Scholarship Accounts (ESA), parents 
receive a debit card for a variety of education expenses, including 
private school tuition, online school expenses, textbooks and tutoring 
from public school funding. The average annual base-funding amount per 
student ranges from $4,600 to $5,400 for students in 1st through 12th 
grades. This bill will repurpose funds appropriated to BIE schools as 
formula funding, and require those be put towards ESAs that can be used 
by eligible students' parents to pay for schooling elsewhere. In other 
words, up to 90 percent of the $15,000 per pupil expenditure for 
students attending BIE-funded schools would leave the BIE system.
    NIEA has three main concerns with this bill:

        1. Protecting Self-Determination.
        Both Congress and this Committee have shown tremendous bi-
        partisan support for increasing and promoting tribal 
        sovereignty in Native education systems. Through the ongoing 
        support of immersion programs, the newly authorized 
        consultation requirements of state education agencies, and the 
        commitment this Committee has shown in supporting tribally 
        controlled schools, universities, and colleges, Congress and 
        the Administration have taken critical steps to supporting 
        tribal autonomy. This particular bill seems to take a step in 
        the opposite direction. This bill will not only take funding 
        away from BIE operated schools but from schools directly 
        operated by the tribes. In addition, the schools that that will 
        now be eligible to receive tribal education dollars, are not 
        required to consult with tribes or ensure that Native students 
        are receiving an education grounded in their culture or ways of 
        knowing. Considering this Committee's support for a tribally 
        driven education, this bill seems to work against a tribal 
        school model that serves our students well.

        2. Potential Negative Effects on BIE Infrastructure.
        We are concerned this piece of legislation will not only affect 
        the students who decide to take advantage of the ESA program, 
        but it will also negatively affect the whole BIE 
        infrastructure. There are several reasons as to why the cost of 
        educating a student attending a BIE-funded school is much 
        higher than the average per pupil expenditure of students 
        attending public schools. The $15,000 amount is not a direct 
        educational service cost only; it encompasses a great deal 
        including transportation, residential fees for students living 
        in BIE dormitories year round, fire services, and so much more. 
        If BIE students leave to attend non-BIE schools, then those who 
        remain at BIE schools will experience exacerbated educational 
        disparities.

        3. Academic Performance.
        Another concern NIEA has with this legislation is the academic 
        comparison between students attending BIE-funded schools and 
        those attending schools elsewhere. Research shows the school 
        performance of Native students, particularly in Arizona and 
        Nevada, has improved when they receive tribally driven 
        education. With the increase of test scores and proficiency in 
        an environment that is most natural to Native students, a 
        continued investment in supporting community driven initiatives 
        and schools is warranted.
Conclusion
    We thank the Committee for holding this hearing. By shining a much 
needed light on the issues facing Native education, you help us 
continue to raise awareness and garner support for critical issues in 
Indian Country on behalf of our students. All of the resolutions that 
were referenced in this testimony have also been submitted for the 
record. The attention that Native youth and education are receiving 
coupled with your innovate ideas for Indian education, has the 
potential to make a meaningful impact in the lives of Native students 
and their communities. Working together, we are confident that we can 
build the collaborative relationships necessary to strengthen tribal 
self-determination in education.

    Appendix

                         NIEA RESOLUTION 11-018
    TITLE: Requesting the Bureau of Indian Education and Federal 
Government to Appropriate Full Funding for the Tribally Controlled 
Schools' Facilities Program.
    WHEREAS, the National Indian Education Association (NIEA) was 
established in 1970 for the purpose of advocating, planning, and 
promoting the unique and special educational needs of American Indians, 
Alaska Natives and Native Hawaiians; and
    WHEREAS, NIEA as the largest national Indian organization of 
American Indian, Alaska Natives and Native Hawaiian educators, 
administrators, parents and students in the United States, provides a 
forum to discuss and act upon issues affecting the education of Indian 
and Native people; and
    WHEREAS, through its' unique relationship with Indian nations and 
tribes, the Federal Government has established programs and resources 
to meet the educational needs of American Indians, Alaska Native and 
Native Hawaiians, residing on and off their reserved or non-reserved 
homelands; and
    WHEREAS, schools operated by tribal governing boards are entitled 
to receive facilities funding for the purpose of maintaining and 
managing the safety and regulation standards of day to day operations; 
and
    WHEREAS, the BIE schools (like Na' Neelzhiin Ji Olta') Facilities 
Program has been underfunded for several years which interferes with 
the maintenance and management of safety and regulation standards of 
day to day operations. The lack of funding also hinders boilers for 
heat during the winter, cooking appliances, etc. The buildings alone 
are quickly deteriorating from age, day to day usage and neglect of 
maintenance and repair due to lack of funding; and
    WHEREAS, as well as the unsafe conditions, the lack of maintenance 
and improvement and repairs to the school, teacher housing also falls 
in the same category as the neglect of the school due to underfunding. 
Teacher quarters are ``outdated'' unites which need to also be brought 
up to standards. With lack of funding, this too, is inadequate; now
    THEREFORE BE IT RESOLVED, that NIEA hereby requests to the 
appropriate entities: Federal Government, Congressmen, Appropriation 
committees and Standing Committees to provide full funding of this 
program and to cease the constraint immediately for proper management 
for the facilities' school wide programs.
        Submitted by: Milton Jim

                        NIEA Resolution 2013-09
    TITLE: SUPPORT FOR NATIVE LANGUAGE INSTRUCTION AND REVITILIZATION
    WHEREAS, the National Indian Education Association (NIEA) was 
established in 1970 for the purpose of advocating, planning, and 
promoting the unique and special educational needs of American Indians, 
Alaska Natives, and Native Hawaiians; and
    WHEREAS, NIEA, as the largest national Indian organization of 
American Indian, Alaska Native, and Native Hawaiian educators, 
administrators, parents, and students in the United States, provides a 
forum to discuss and act upon issues affecting the education of Indian 
and Native people; and
    WHEREAS, through its unique relationship with Indian nations and 
tribes, the Federal Government has established programs and resources 
to meet the educational needs of American Indians, Alaska Natives, and 
Native Hawaiians, residing on and off their reserved or non-reserved 
homelands; and
    WHEREAS, Native language revitalization is a top priority for 
tribes, as well as Native education stakeholders and communities; and
    WHEREAS, funds to support Native language revitalization efforts 
from current sources are insufficient to address the magnitude of need 
across the variety of American Indian, Alaska Native, and Native 
Hawaiian communities committed to expanding their indigenous language 
revitalization efforts; and
    WHEREAS, research maintains that the learning of English is 
improved when one is grounded solidly in the first language from the 
home and community; and
    WHEREAS, NIEA has always maintained a policy of supporting what is 
best for all of Native education and of not pitting one Native 
community or segment of the Native community over another; and
    NOW THEREFORE BE IT RESOLVED, that the NIEA will support the 
efforts of expanding immersion and language revitalization efforts 
within the Elementary and Secondary Education Act but not at the 
expense of existing funding and if immersion and language 
revitalization efforts are expanded within the Native education title, 
funds and resources shall not be allocated from existing programs so 
that programs can continue to adequately address the cultural, 
linguistic, and educational needs of Native students; and
    BE IT FURTHER RESOLVED, that the NIEA recommends the expansion of 
funds and services to support the core program of student instruction 
and to address the critical needs of Native language revitalization 
efforts by including teacher training, curriculum development, 
evaluation and assessment, and Native parent and community as well as 
tribal involvement in a child's education but not at the expense of 
current students and programmatic funding.
                             certification
    I do hereby certify that the following resolution was dully 
considered and passed by the National Indian Education Association on 
November 2, 2013 at which a quorum of the membership was present.
        Pam Agoyo President

                        NIEA Resolution 2013-12
    TITLE: SUPPORT OF EARLY LEARNING MEASURES THAT STRENGTHEN NATIVE 
CULTURES
    WHEREAS, the National Indian Education Association (NIEA) was 
established in 1970 for the purpose of advocating, planning, and 
promoting the unique and special educational needs of American Indians, 
Alaska Natives, and Native Hawaiians; and
    WHEREAS, NIEA, as the largest national Indian organization of 
American Indian, Alaska Native, and Native Hawaiian educators, 
administrators, parents, and students in the United States, provides a 
forum to discuss and act upon issues affecting the education of Indian 
and Native people; and
    WHEREAS, through its unique relationship with Indian nations and 
tribes, the Federal Government has established programs and resources 
to meet the educational needs of American Indians, Alaska Natives, and 
Native Hawaiians, residing on and off their reserved or non-reserved 
homelands; and
    WHEREAS, the President's Initiative on Early Education is a 
priority in our Native communities and is an opportunity to advance the 
unique linguistic and cultural identities of American Indian, Alaska 
Native, and Native Hawaiians; and
    NOW THEREFORE BE IT RESOLVED, that the NIEA supports provisions for 
the promotion, protection, and use of our Native languages--American 
Indian, Alaska Native, Native Hawaiian--at the earliest stage of child 
development in any federal legislation as a means to reverse language 
loss and that set aside funds are established for grant programs for 
tribes, tribal, and Native Hawaiian organizations; and
    BE IT FURTHER RESOLVED, that the NIEA supports the requirement that 
states with significant American Indian, Alaska Native, and Native 
Hawaiian populations consult with these constituents in the development 
of their state plans to ensure appropriate assessments in the language 
of instruction, strong family/parent engagement component, and support 
for multiple delivery systems are included in the plans.
                             certification
    I do hereby certify that the following resolution was dully 
considered and passed by the National Indian Education Association on 
November 2, 2013 at which a quorum of the membership was present.
        Pam Agoyo President

                        NIEA Resolution 2013-13
    TITLE: SUPPORT OF TITLE VII WITHIN THE ELEMENTARY AND SECONDARY 
EDUCATION ACT (ESEA)
    WHEREAS, the National Indian Education Association (NIEA) was 
established in 1970 for the purpose of advocating, planning, and 
promoting the unique and special educational needs of American Indians, 
Alaska Natives, and Native Hawaiians; and
    WHEREAS, NIEA, as the largest national Indian organization of 
American Indian, Alaska Native, and Native Hawaiian educators, 
administrators, parents, and students in the United States, provides a 
forum to discuss and act upon issues affecting the education of Indian 
and Native people; and
    WHEREAS, through its unique relationship with Indian nations and 
tribes, the Federal Government has established programs and resources 
to meet the educational needs of American Indians, Alaska Natives, and 
Native Hawaiians, residing on and off their reserved or non-reserved 
homelands; and
    WHEREAS, it is the policy of the United States to fulfill the 
Federal Government's unique and continuing trust relationship with and 
responsibility to the Native People of the United States for the 
education of American Indian, Native Hawaiian, and Alaska Natives and;
    WHEREAS, Title VII of the Elementary and Secondary Education Act 
authorizes programs that serve American Indian, Native Hawaiian and 
Alaska Natives, that are of the highest quality and provide for not 
only the basic elementary and secondary educational needs, but also the 
unique linguistic and culturally related academic needs of American 
Indian, Native Hawaiian and Alaska Native students; and
    NOW THEREFORE BE IT RESOLVED, that the NIEA supports the 
reauthorization of the Elementary and Secondary Education Act (ESEA), 
particularly Indian, Native Hawaiian and Alaska Native Education Acts, 
so that Native Education is left as a distinct and separate title to 
strengthen Native, tribal, and local control over the education of 
American Indian, Native Hawaiian, and Alaska Native students; and
    BE IT FURTHER RESOLVED, that the NIEA does hereby support the 
requirement that states with significant numbers of American Indian, 
Alaska Native, and Native Hawaiian populations be required to consult 
with these constituents and create state plans which directly address 
the needs of these populations as required under the current Title I of 
Elementary and Secondary Education Act.
                             certification
    I do hereby certify that the following resolution was dully 
considered and passed by the National Indian Education Association on 
November 2, 2013 at which a quorum of the membership was present.
        Pam Agoyo President

                        NIEA Resolution 2014-11
    TITLE: SUPPORT FOR CONGRESSIONAL OVERSIGHT CONCERNING THE BUREAU OF 
INDIAN EDUCATION RESTRUCTURING AND BLUE PRINT FOR REFORM
    WHEREAS, the National Indian Education Association (NIEA) was 
established in 1970 for the purpose of advocating, planning, and 
promoting the unique and special educational needs of American Indians, 
Alaska Natives, and Native Hawaiians; and
    WHEREAS, NIEA, as the largest national Indian organization of 
American Indian, Alaska Native, and Native Hawaiian educators, 
administrators, parents, and students in the United States, provides a 
forum to discuss and act upon issues affecting the education of Indian 
and Native people; and
    WHEREAS, through its unique relationship with Indian nations and 
tribes, the Federal Government has established programs and resources 
to meet the educational needs of American Indians, Alaska Natives, and 
Native Hawaiians, residing on and off their reserved or non-reserved 
homelands; and
    WHEREAS, the Obama Administration has asserted broad executive 
authority in implementing the U.S. Department of the Interior 
Secretarial Order to Transform the Bureau of Indian Education (BIE) as 
based on recommendations of the American Indian Education Study Group's 
Blueprint for Reform; and
    WHEREAS, there is broad based concern throughout Indian country, 
and with treaty tribes in particular, that the BIE realignment is 
creating statutory conflicts and being implemented without a 
congressional authorization and without congressional oversight; and
    WHEREAS, The Secretary of the Interior Sally Jewell has not 
appeared before the Senate Committee on Indian Affairs to provide 
details concerning the BIE restructuring, nor has the Secretary 
provided congressional appropriations committees with a detailed budget 
request to pay for the restructuring; and
    WHEREAS, Administration officials have erroneously testified to the 
Senate Committee on Indian Affairs that there is no opposition from 
Indian country concerning the Blueprint for Reform; and
    WHEREAS, to meet the Federal Government's continuing trust 
responsibility and assess measurable trust standards in the field of 
Indian education including the entire trust corpus for treaty-based 
educational rights delivered through the BIE, it is essential that 
committees of jurisdiction in both the U.S. House of Representatives 
and U. S. Senate provide congressional oversight on executive actions 
concerning the BIE;
    NOW THEREFORE BE IT RESOLVED, that the National Indian Education 
Association directs the Board and Executive Director to request a 
congressional investigation into the Bureau of Indian Education 
restructuring and Blueprint for Reform to ascertain if the Secretarial 
Order creates a statutory conflict and to document Department of the 
Interior proposed offsets to pay for the restructuring; and
    BE IT FURTHER RESOLVED, that the National Indian Education 
Association directs the Board and Executive Director to request 
oversight hearings by the Senate Committee on Indian Affairs and House 
Education and Workforce Committee and House Committee on Natural 
Resources and other appropriate congressional committees regarding the 
Bureau of Indian Education restructuring and Blueprint for Reform.
                             certification
    I do hereby certify that the following resolution was dully 
considered and passed by the National Indian Education Association on 
October 18, 2014 at which a quorum of the membership was present.
        Melvin Monette President

                        NIEA Resolution 2014-17
    TITLE: SUPPORT CREATION OF A BUREAU OF INDIAN EDUCATION TRIBAL 
BUDGET TASK FORCE
    WHEREAS, the National Indian Education Association (NIEA) was 
established in 1970 for the purpose of advocating, planning, and 
promoting the unique and special educational needs of American Indians, 
Alaska Natives, and Native Hawaiians; and
    WHEREAS, NIEA, as the largest national Indian organization of 
American Indian, Alaska Native, and Native Hawaiian educators, 
administrators, parents, and students in the United States, provides a 
forum to discuss and act upon issues affecting the education of Indian 
and Native people; and
    WHEREAS, through its unique relationship with Indian nations and 
tribes, the Federal Government has established programs and resources 
to meet the educational needs of American Indians, Alaska Natives, and 
Native Hawaiians, residing on and off their reserved or non-reserved 
homelands; and
    WHEREAS, the Bureau of Indian Education (BIE) directly oversees a 
total of 183 elementary, secondary, residential and peripheral 
dormitories across 23 states that serve roughly 41,000 Indian students 
living on or near reservations; and
    WHEREAS, BIE's mission is to provide Indian students quality 
educational opportunities starting in early childhood in accordance 
with a tribe's need for cultural and economic well-being; and
    WHEREAS, the high school graduation rate for BIE students in 2011 
was 61 percent, placing BIE in the bottom half among graduation rates 
for Indian students attending public schools in states where BIE 
schools are located; and
    WHEREAS, BIE schools are primarily funded through the Department of 
the Interior, however, it also receives annual formula grants from the 
Department of Education, similar to public schools; and
    WHEREAS, the structure of funding and administrative bureaucracy 
for the BIE is causing significant challenges for the BIE and Indian 
schools to improve student academic performance; and
    WHEREAS, while the Bureau of Indian Affairs (BIA), which oversees 
funding for the BIE, has undertaken another realignment of its 
administrative functions, it is unclear to what extent, if at all, the 
changes will result in improved services for BIE and its schools; and
    WHEREAS, the BIA implemented its most recent realignment without 
seeking input from a broad range of education and BIE stakeholders; and
    WHEREAS, the BIA failed to develop a strategic plan with specific 
goals and measures for itself or BIE or strategies to achieve goals; 
and
    WHEREAS, the BIA has not updated its workforce plan or assessed 
Indian Affairs' realignment and its impact on BIE to ensure the agency 
has the right staff in place with the appropriate skills to effectively 
meet the needs of BIE schools and their ability to serve Native 
students; and
    WHEREAS, the United States Government Accountability Office (GAO) 
released a report to Congress in September 2013 highlighting issues 
reducing the effectiveness of the BIE and proposed possible methods to 
increase effectiveness; and
    WHEREAS, the GAO stated in that same report that it intends to 
issue a second report that will compare funding and expenditures for 
BIE schools to those of nearby public schools;
    THEREFORE BE IT RESOLVED, that NIEA does hereby call for the 
establishment of a Tribal/Federal Task Force (Task Force) comprised of 
tribal leaders and federal agency representatives to study the funding 
constraints BIE schools face as well as investigate appropriate 
measures to be taken in order to address such concerns culminated into 
a final report; and
    BE IT FURTHER RESOLVED, that NIEA supports that this Task Force be 
comprised of representation from NIEA, the National Congress of 
American Indians (NCAI), the American Indian Higher Education 
Consortium (AIHEC), the Tribal Education Departments National Assembly 
(TEDNA), the BIA, and the Department of Education (ED) to complete the 
study and provide recommendations for next steps to be taken and 
potential solutions, such as the impacts of shifting funding streams 
from the BIA to the BIE so that administrative functions and funding 
allocations are held strictly within the BIE; and
    BE IT FURTHER RESOLVED, that any potential solutions considered, 
such as the one aforementioned, must take into account all benefits and 
consequences arising from each; and
    BE IT FINALLY RESOLVED, that the NIEA does hereby request that the 
findings from the Task Force report be disseminated to tribes and their 
education agencies, the Secretaries of the Interior and Education, the 
White House Initiative on American Indian and Alaska Native Education, 
and Congress.
                             certification
    I do hereby certify that the following resolution was dully 
considered and passed by the National Indian Education Association on 
October 18, 2014 at which a quorum of the membership was present.
        Melvin Monette President

               National Indian Education Association (NIEA)
                                                  November 10, 2015
The Honorable Sally Jewell,
Secretary,
U.S. Department of the Interior,
Washington, DC.
        Re: In Support of the Bureau of Indian Education's 
                                             Reorganization

    Dear Secretary Jewell,

    On behalf of the National Indian Education Association (NIEA), the 
largest and oldest Native organization representing over 2,500 Native 
educators, students, teachers, parents, and tribal leaders, we thank 
you for your leadership and support on Native education. NIEA has been 
cautiously optimistic of the reorganization efforts of the Bureau of 
Indian Education's (BIE) Blueprint for Reform. As such, we have 
participated in several consultations regarding the Reform in hopes to 
maximize transparency and meaningful tribal engagement for our 
membership.
    The importance of such a Reform is both vital and urgent. As you 
have said in the past, Secretary Jewell, ``Indian education is an 
embarrassment to you and to us.'' Native students lag far behind their 
peers on every educational indicator, from academic achievement to 
college and career ready. According to the 2011 National Assessment of 
Educational Progress (NAEP), Native students scored significantly lower 
than their peers on both reading and mathematics in grades 4 and 8. 
Sadly, the recently released 2015 NAEP data shows no improvement. 
Furthermore, as the national high school graduation rate reaches an 
all-time high of 81 percent, BIE schools have an overall graduation 
rate of 53 percent. This discrepancy is only widening. Now is the time 
for everyone to stand together, committed to fully investing and 
supporting this nation's most vulnerable youth. As such, NIEA is 
formally extending our support for the proposed BIE Reform.
    Reports have consistently highlighted the importance of increased 
tribal engagement in Native education. The first evaluation of formal 
education for American Indian people occurred in 1928. The study, known 
as the Meriam Report, harshly criticized the condition of Indian 
schools and recommended to incorporate essential aspects of Indian life 
and culture into the curriculum. Thirty years later, President Kennedy 
pushed for a report entitled, ``Indian Education: A National Tragedy--A 
National Challenge,'' which vehemently criticized the assimilation 
polices of the federal school system for Indian students. One of the 
three key recommendations produced by this report was to increase 
tribal control in education policies. After eighty years of evidence, 
the movement that the BIE is taking towards increased self-
determination and self- governance in the education of Native students 
is long overdue.
    However, as efforts to reorganize the BIE move forward, they must 
be done with caution and be mindful of the established trust 
responsibility which exits between tribes and the Federal Government. 
Through treaties, federal law, and U.S. Supreme Court decisions, the 
Federal Government has a moral and fiduciary obligation toward parity 
in access and equitable resources to Native education. The Reform will 
only succeed if BIE continues to move forward with a solid foundation 
of the trust relationship and an inclusive, cooperative framework of 
tribes and local stakeholders. From that vantage, NIEA provides the 
following guidance:

    1. Clarification on authority for the Reform. Tribes have 
repeatedly questioned whether BIE has the base authority to move 
forward with the Reform based on the Tribally Controlled Schools Act 
(P.L. 100-297). NIEA has requested an opinion from the DOI's Office of 
the Solicitor on this matter. However, an opinion has not yet been 
provided.

    2. BIE-focused budget advisory committee. NIEA recommends the 
formation of a tribal budget advisory committee focused specifically on 
BIE issues to advise the Department of Interior (DOI) on educational 
issues. Although the Tribal-Interior Budget Council (TBIC) provides an 
avenue for tribal input on budget issues, TBIC focuses on all issues 
relevant to Indian Country and therefore lacks the education-specific 
knowledge required to help transform Native education. A tribal 
education advisory committee would establish an important point of 
contact for tribal leaders and tribal educators. Such a committee would 
be effectively positioned to make recommendations to address both BIE 
and the Bureau of Indian Affairs (BIA) educational activities.

    3. Increased transparency during the BIE Reform. As requested, BIE 
has provided the proposed offsets designated to cover the 2016 Reform 
budget as well as the revised program and line office changes. NIEA 
encourages that this transparency continue and that BIE provide the 
Phase 2 budget for 2017 as well as a timeline for completion of the 
Reform as soon as possible.

    4. Adhering to GAO recommendation. Through recently released GAO 
reports, there have been a number of areas identified as needing 
reform--many of which involve responsibilities that are directly 
assigned to the BIA. As such, follow-up is needed, which involves both 
BIE and BIA officials in order to facilitate dialogue regarding BIE 
reform and to determine how communication can be strengthened between 
the two agencies. NIEA requests that the BIE provide an update on how 
they are addressing each of the GAO recommendations for better 
interagency cooperation.

    5. Assurance of job security. As the BIE works with tribes to 
increase their capacity to run and operate BIE schools directly, 
current BIE employees, including the 3,000 teachers and school 
administrators must be provided an assurance of job security. NIEA is 
requesting a plan from BIE on job retention, placement, and re-training 
should the tribe ultimately decide to make significant staffing 
changes.

    The BIE Reform process as well as the attention that Native youth 
and education are receiving, has the potential to make a meaningful 
impact in the lives of Native students and their communities. Working 
together, we are confident that we can build the collaborative 
relationships necessary to strengthen tribal self-determination in 
education. NIEA will be sharing our support and guidance for the BIE 
Reformwith Congress and tribal leaders.
        Sincerely,
                                        Patricia Whitefoot,
                                                         President.

    The Chairman. Thank you very much. We look forward to the 
questioning. We will submit all of that for the record. Thank 
you, Ms. Whitefoot.
    Dr. Boham.

 STATEMENT OF SANDRA BOHAM, Ed.D., PRESIDENT, SALISH KOOTENAI 
                            COLLEGE

    Dr. Boham. Mr. Chairman Barrasso and Committee, thank you 
for having me here today.
    As Senator Tester already said, my name is Dr. Sandra 
Boham. I am an enrolled member of the Confederated Salish and 
Kootenai Tribes of the Flathead Reservation and President of 
Salish Kootenai College in Pablo, Montana.
    On behalf of my college and the Nation's 36 other tribal 
colleges and universities, I would like to offer testimony on 
two bills today, S. 2304 and S. 2468. My comments for the other 
two bills are also included in the written testimony.
    First, I would like to thank Senators Tester and Daines for 
all the work they do on behalf of our seven tribal colleges in 
Montana and all the Native people of the State. We value their 
commitment and hope to continue working with them as we move 
forward.
    As tribal colleges, we support both S. 2304 and S. 2468. We 
urge the Committee to favorably report these bills. As an 
Indian educator, I urge you to take action. Our children cannot 
continue to wait.
    First is S. 2304. There is no other group of young people 
more at risk in this country today in Indian country. Our 
Native children are involved with gangs at a higher rate than 
any other racial group. Our youth have the highest suicide 
rates in the country, 2.5 times the national average.
    Our children suffer one of the highest rates of abuse and 
neglect in the Nation and most often will be found living below 
the poverty line which means our children often go to bed 
hungry. We have the highest dropout rate in the country.
    These statistics are not acceptable and we cannot continue 
to tolerate them. As a Nation, we have to do better. Tribal 
colleges are leading the way in this effort.
    Oglala Lakota College and Aaniiih Nakoda Colleges are both 
running high achieving Native language immersion schools on 
their campuses without funding from the BIE or their State.
    Salish Kootenai College, along with most of the tribal 
colleges and universities are managing day care programs on 
their campuses without additional funding. At least two tribal 
colleges have taken over failing Head Start programs, 
revitalized dilapidated facilities and introduced culturally 
relevant educational programming.
    Sitting Bull College established an innovative 
intergenerational Lakota immersion program for its daycare and 
preschool.
    All the tribal colleges are doing Saturday academies, 
summer and after school enrichment programs. Sixteen of the 
tribal colleges, including SKC, are partnering with BIE schools 
to raise high school completion rates and to develop a college-
going culture.
    These are just a few examples of the way TCUs are 
transforming the educational and life experience of children 
through a holistic continuum of culturally-based education. My 
written testimony contains two broader comments related to TCUs 
we would ask you to consider as you discuss legislation such as 
S. 2304. I will mention just one now, the need to reestablish 
the tribal colleges Head Start Partnership Program.
    We ask that Congress allocate up to $8 million of the $10 
billion that the Head Start Program gets to reestablish the 
highly successful Head Start TCU Partnership Program which 
would provide scholarships and stipends for Indian Head Start 
workers to get training and certification.
    Far less than half of all workers in Native serving Head 
Start facilities meet the required national minimum standards 
of educational training today. However, when the Head Start TCU 
Program existed between 2000 and 2007, TCUs trained more than 
400 workers.
    Native children deserve qualified teachers and aides. We 
urge you to reestablish this vital program. Taking action would 
not cost a penny but it will make a lifetime difference to our 
children.
    S. 2468, the SAFETY Act, will help address one of the basic 
needs of any school or college and in doing so, will enable 
tribal colleges to serve more students and help tribes grow 
their workforces. In 2009, tribal colleges had $100 million in 
shovel ready construction and rehab projects, including 
academic facilities, faculty and student housing.
    I mentioned that the Federal Government's modest investment 
in tribal colleges has a tremendous return. We have established 
early childhood, elementary and secondary education programs at 
the Bachelor's degree level at Salish Kootenai College. We know 
students do better when they have teachers who come from their 
communities and look like them.
    I have been a lifelong educator. I graduated from St. 
Ignatius High School, got degrees at the University of Montana 
and Montana State University. That sounds really easy but it 
was not. It took me eight years of taking summer classes to get 
my Master's degree and another 25 before I completed my 
doctoral degree.
    I have worked in a women's prison, in Job Corps, at a 
mainstream university and other mainstream colleges. I started 
working at SKC when we were teaching in basements and vacant 
buildings before we had a campus. I came back and worked with 
Upward Bound and Gear Up and I was the director of an Indian 
education program in a public school district for eight years.
    My education and professional experiences cover a continuum 
of education. One thing has been constant: my identity as a 
tribal member of the Confederated Salish and Kootenai Tribes.
    I make every effort I can to try and keep that connection 
for our students and our children because we know that strength 
and identity and a solid educational background is what is 
going to make them the most successful.
    In conclusion, we recognize and greatly appreciate the 
ongoing support of this Committee. We ask you to continue your 
support as we bring educational excellence to the communities 
and students we serve.
    Thank you.
    [The prepared statement of Ms. Boham follows:]

 Prepared Statement of Sandra Boham, Ed.D., President, Salish Kootenai 
                                College
    Mr. Chairman and distinguished members of the Committee, my name is 
Dr. Sandra Boham. I am an enrolled Confederated Salish and Kootenai 
tribal member; President of Salish Kootenai College in Pablo, Montana; 
and a member of the Board of Directors of the American Indian Higher 
Education Consortium (AIHEC). On behalf of my institution, Salish 
Kootenai College, the six other Tribal Colleges in Montana and the 30 
other TCUs throughout the country, which collectively are AIHEC, thank 
you for inviting me to testify at this hearing on four bills seeking to 
enhance American Indian and Alaska Native education.
    While four legislative initiatives are included in today's hearing, 
my testimony will specifically address two: S. 2304, which provides for 
tribal demonstration projects to integrate certain early childhood 
programs, and S. 2468, the SAFETY Act, which would provide modest--yet 
vitally needed--funding for Indian education facility construction.
    It is an honor to speak with the members of this Committee about 
these two pieces of legislation and to share with you a little about 
the important work that Tribal Colleges are doing to transform Indian 
Country. First, however, I want to thank Senator Tester for his 
tremendous work on behalf of the seven tribes in Montana, our seven 
Tribal Colleges, and all Native people. We appreciate Senator Tester's 
commitment to working collaboratively with Tribal Colleges to 
addressing our collective mission of improving the lives of our 
students through higher education and moving American Indians toward 
self-sufficiency.
    My statement will touch on two topics: first, Tribal College 
recommendations regarding S. 2304 and S. 2468; and second, the 
accomplishments and challenges of Tribal Colleges in bringing high 
quality, culturally appropriate education opportunities to our students 
and culturally centered programs to our communities.
Recommendations Regarding S. 2304 and S. 2468
    The nation's Tribal Colleges and Universities, through our 
collective organization, AIHEC, support and encourage swift enactment 
of S. 2304 and S. 2468:
S. 2304, Tribal Early Childhood, Education, and Related Services 
        Integration Act
    There is no other group of young people more at risk in this 
country today than American Indian and Alaska Native (AI/AN) children 
and youth. Native kids are more likely to be involved with gangs than 
any other racial population (National Council on Crime and Delinquency, 
2009); Native youth have the highest suicide rate in the country, 2.5 
times the national average (U.S. Department of Health and Human 
Services, National Center for Health Statistics, Centers for Disease 
Control, 2010); Native children suffer one of the highest rates of 
child abuse and neglect in the nation: 11.4 per 1,000 AI/AN children 
(Children's Bureau, 2012); we have the highest poverty rate in the 
nation (U.S. Department of Commerce, 2009), which means many of our 
children go to bed hungry; and Native kids have the highest high school 
dropout rate in the country.
    These statistics describe a situation that cannot be tolerated. As 
a nation, we can and must do better. Tribal Colleges are already 
leading the way: Oglala Lakota College and Aaniiih Nakoda College are 
running high achieving Native language immersion schools on their 
campuses without funding from the BIE or the state; Salish Kootenai 
College, along with most of the TCUs are managing our own day care 
centers at considerable cost to the college every year because students 
often cannot afford to pay; OLC and Cankdeska Cikana Community College 
each took over failing Head Start programs and revitalized dilapidated 
facilities and introduced culturally relevant programming; Sitting Bull 
College established an innovative intergenerational Lakota immersion 
program for its day care center and pre-school; nearly 20 TCUs are 
conducting Indigenous, community-based participatory research on 
behavior health needs in the community; all TCUs are running Saturday 
academies, summer and after-school enrichment programs; and 16 TCUs, 
including SKC, are partnering with BIE schools to raise high school 
completion rates and develop a college-bound culture; Sitting Bull 
College has a model summer Native Language Institute--professional 
development for all pre-K-12 teachers (and anyone else who is 
interested and committed) on the Standing Rock Reservation that has 
proven so successful that at least three other TCUs are now 
implementing the model on their own reservations. We are doing much 
more--these are just a few examples of the strategies TCUs are 
implementing and integrating to transform the educational and life 
experience of our children through a holistic continuum of culturally-
based education.
    We are pleased that S. 2304 includes Tribal Colleges, and we would 
like to make two broader, yet relevant, recommendations to address the 
needs of our youngest learners:

        (1) Recognize the Inherent Role of TCUs in Training Educators 
        of Native Learners: Congress should specifically and clearly 
        reinforce the lead role of Tribal Colleges in the U.S. 
        Department of Education's Professional Development Program 
        (American Indian Teacher Preparation) by requiring applicants 
        to have as a key component of their program a partnership with 
        one or more TCUs designed to increase the number of American 
        Indian/Alaska Native teachers and administrators serving tribal 
        communities and provide a minimum of $10,000,000 to fund these 
        critically needed competitively awarded grants.
        TCUs need to be recognized and adequately supported so that 
        they can continue to play a fundamental role in developing a 
        critical mass of educators for Native learners. As Tribal 
        institutions, TCUs should be the primary training sites for 
        pre-service and in-service educators who work with Native 
        learners. Since the primary goal of Professional Development 
        for American Indian Teachers/Administrators program is to 
        increase the number of effective Indian teachers and 
        administrators for schools with large Indian populations, the 
        TCUs need to be lead institutions in the efforts funded under 
        this program.

        (2) Expand the TCU-Head Start Partnership Program: Congress 
        should allocate up to $8 million of the $10 billion Head Start 
        Program to reestablish the highly successful Head Start-TCU 
        Partnership Program, which would provide scholarships and 
        stipends for Indian Head Start workers to get vitally needed 
        training and certification.
        With the reauthorization of the Head Start program in the mid-
        1990s, Congress imposed new performance and professional 
        competency requirements. Specifically, at least 50 percent of 
        Head Start teachers nationwide were to have a baccalaureate or 
        advanced degree in Early Childhood Education or a baccalaureate 
        or advanced degree in any subject and coursework equivalent to 
        a major relating to early childhood education with experience 
        teaching preschool-age children, and 50 percent of all teacher 
        assistants were to have an associate degree or enrolled in an 
        associate degree program. While we may be prepared to declare 
        that this nationwide goal has been achieved, far less than half 
        of Head Start teachers in the American Indian/Alaska Native 
        Head Start Program area hold an associate or bachelor's degree.
        AI/AN children deserve the best, and the TCUs are ideal 
        catalysts for preparing Indian Head Start teachers so that they 
        might offer these children the Head Start programs they 
        deserve. We know this is true because from 2000 to 2007, the 
        U.S. Department of Health and Human Services provided modest 
        funding for the TCU-Head Start Program, which helped TCUs build 
        capacity in early childhood education by provided scholarships 
        and stipends for Indian Head Start teachers and teacher's aides 
        to enroll in TCU early childhood programs. Before the program 
        ended in 2007 (ironically, the same year that Congress 
        specifically authorized the program in the Head Start Act), 
        TCUs had trained more than 400 Head Start workers, many of whom 
        have since left to higher paying jobs in elementary schools.

S. 2468, Safe Academic Facilities and Environments for Tribal Youth Act 
        (SAFETY Act)
    All children, no matter where they go to school, deserve to have 
safe, high quality learning environments. Feeling safe, being warm, and 
having clean drinking water are fundamental to a quality learning 
environment. Yet, many American Indian and Alaska Native students 
attend schools that lack even these basic requirements, and when 
tribes, states, or even Tribal Colleges step in with repairs or 
rehabilitation, the school risks being removed from the BIE repair 
list. Meanwhile, Tribal Colleges operating Head Start programs for 
their tribes are taking out loans for which the college itself is 
responsible and forgoing higher education construction to rehabilitate 
classrooms for our youngest children. If the TCU did not do this, 
another generation of young American Indian children would be forced to 
begin their educational path in rundown, unsafe, sometimes rodent 
infested educational facilities.
    We need an accurate accounting of the facilities needs of schools 
serving AI/AN youth, early childhood through postsecondary, and more 
important, we need reliable and equitable resources to begin addressing 
these needs.
    The SAFETY Act will help address one of the most basic needs of any 
education institution and in so doing, will enable TCUs to provide more 
students with the opportunity to complete a degree program and help our 
tribes grow their Native workforce and advance the economies of Indian 
Country. In 2009, TCUs had at least $100 million in shovel-ready 
construction and rehabilitation projects, including Science, Career/
Technical, and other academic facilities; student and faculty housing; 
and libraries, day care centers, and wellness centers. Recent surveys 
show that the need persists in all of these areas. To continue to 
provide high quality, culturally relevant postsecondary education 
opportunities, all TCUs must continue to build and expand their 
facilities and infrastructure.
    We look forward to working with Senator Tester and the Members of 
this Committee toward enactment of S. 2304 and S. 2468 and other 
important measures related to excellence, safety, and success for all 
American Indian and Alaska Native students.
Background: The Tribal College Movement
    Mr. Chairman, as I mentioned earlier, I am an enrolled Confederated 
Salish and Kootenai tribal member. I am also a lifelong educator. I was 
raised in St. Ignatius, Montana--I am a graduate of St. Ignatius High 
School. I earned undergraduate and doctorate degrees from the 
University of Montana and in between, a graduate degree from Montana 
State University. Sounds tidy and smooth when I say it like that. But 
it was not: it took me about eight years, taking summer classes, to 
earn my master's degree after college. Another 25 years passed before I 
completed my Ph.D. In between, I worked across the educational 
spectrum: I taught in a women's prison, a Job Corps site, and 
mainstream colleges. I also worked at Salish Kootenai College, first in 
its early days when there were no buildings and classes were taught 
anywhere we could find a spot--including a church basement, empty 
buildings, and shared facilities. (So I have experienced, first hand, 
the need for legislation like the SAFETY Act.) I came back to work at 
SKC years later for the college's Gear Up and TRIO programs, reaching 
out to high school and middle school students. I also worked in an 
urban state public school system in Montana, and finally, I came home 
to Salish Kootenai College as an administrator. My professional life 
spans the continuum of learning.
    Throughout my life and career, one thing has remained constant: my 
identity as a Salish and Kootenai tribal member. No matter where I was, 
it was important to remain connected to my tribe and community and to 
nurture that connection with my children. My children danced in pow 
wows, and we even formed our own family drum group to keep our songs 
and stories alive. As parents, my husband and I took these steps to 
ensure that our children never questioned their identity; but many 
parents cannot do this. They do not have the resources, or maybe they 
have lost touch with their own tribal identity. It's important for our 
schools to fill this gap, because without the strength of identity, it 
is difficult for our children to succeed in education. A strong 
connection to tribal culture and language is critical. I noticed that 
many young Native students were missing this connection when I went to 
work for the Great Falls Public School System. The Indian community was 
isolated, even from one another. We were losing many students. So we 
started drumming and singing. We reconnected. When I left Great Falls 
to come back to SKC, 125 students were singing and five drum groups had 
been formed. Our youth are finding their identity.
    Tribal Colleges make this connection every day, one student at a 
time. We build confidence, self-esteem, and identity: at SKC and all 
TCUs, our students learn our stories and songs, our history and our 
language, and from these, they gain the courage, the tools and the 
confidence to shape a better world on our own land. Being around other 
tribal students and experiencing education from a Native perspective 
brings a connection to family and culture that is critical to the 
success of our students. As some of the most poorly funded institutions 
of higher education in the country, our struggle is a daily one, but 
our successes are generational. We are changing the lives and future of 
our students and their families through nurturing educational 
environments that are culturally-based and uniquely relevant to our 
students, we are building stronger and more prosperous Tribal nations 
through the restoration of our languages, community outreach programs 
and applied research on issues relevant to our land and our people, 
workforce training in fields critical to our reservation communities, 
and community-centered economic development and entrepreneurial 
programs. TCUs are a vital and essential component of the AI/AN 
education continuum.
    Currently, 37 TCUs operate more than 75 campuses and sites in 16 
states, within whose geographic boundaries 80 percent of all American 
Indian reservations and federal Indian trust land lie. We serve 
students from well over 250 federally recognized tribes, 85 percent of 
whom receive federal financial aid. In total, TCUs annually serve more 
than 160,000 AIs/ANs through a wide variety of academic and community-
based programs. In Montana, 50 percent of all American Indians enrolled 
in higher education attend one of seven TCUs in our state. In fact, 
according to all available statistics on American Indians enrolled in 
federally recognized Indian tribes and currently engaged in higher 
education nationally, more than 50 percent attend TCUs. \1\
---------------------------------------------------------------------------
    \1\ This statistic excludes self-reporting, which despite having 
been shown in studies to be unreliable, is the measure used by the 
Department of Education's White House Initiative on American Indian and 
Alaska Native Education.
---------------------------------------------------------------------------
    TCUs are public institutions accredited by independent, regional 
accreditation agencies and like all U.S. institutions of higher 
education must periodically undergo stringent performance reviews to 
retain their accreditation status. Currently, all TCUs offer associate 
degrees; 13 TCUs offer multiple bachelor's degrees, and five TCUs offer 
master's degrees. Each TCU is committed to improving the lives of its 
students through higher education and to moving American Indians toward 
self-sufficiency.
    Tribal Colleges are first and foremost academic institutions, but 
because of the number of challenges facing Indian Country--high 
unemployment, poorly developed economies, poor health status, and lack 
of stable community infrastructures, our colleges are called upon to do 
much more than provide higher education services. TCUs often run 
entrepreneurial and business development centers; many TCUs are the 
primary GED and Adult Basic Education provider on our reservations, and 
most if not all TCUs provide a variety of evening, weekend training and 
para-professional programs for tribal employees, BIA and IHS staff, K-
12 schools, tribal courts and justice system staff, and many others. 
TCUs run day care centers and Head Start programs, health nutrition 
education programs, community gardens, and often, the community library 
and tribal museum or archives.
    Perhaps most important, Salish Kootenai College and all of the TCUs 
are actively and aggressively working to preserve and sustain their own 
tribal language and culture. All TCUs offer Native language courses. In 
some cases, the tribal language would have been completely lost if not 
for the local Tribal College. Turtle Mountain Community College in 
Belcourt, North Dakota, was established primarily for this purpose, and 
over the years, its success in writing and revitalizing the Turtle 
Mountain Chippewa language has been remarkable. As I mentioned earlier, 
Aaniiih Nakoda College in Harlem, Montana runs a K-8 language immersion 
school, right on campus. At the White Clay Immersion School, children 
learn the White Clay language and culture in addition to subjects they 
would routinely study at any other school. One of our goals at Salish 
Kootenai College is to launch a high school on our campus to improve 
high school and college completion rates among our youth.
    AIHEC recently commissioned an internationally known economic 
impact firm to investigate the TCU return on investment: for every $1 
the federal government invests, taxpayers get at least $2.40 back--with 
an average annual rate of return of 6.2 percent. Students get $4.20 
back for every dollar they invest; and tribes, states/regions receive a 
$5.20 return for every dollar. Further, TCUs save the federal 
government nearly $200 million every year in social program savings, 
and our alumni generate at least $2.3 billion in added income every 
year. This number is actually much higher, but it is the best data we 
have currently.
    In closing, Mr. Chairman, we recognize and greatly appreciate the 
ongoing support of this Committee. Now, more than ever, we need to 
strengthen our commitment to action. TCUs are sound and stable tribal 
institutions; TCUs have a proven high return on investment; TCUs are 
transforming Indian Country. We ask for your support as we continue to 
bring educational excellence to the students and communities we serve. 
Thank you.

    The Chairman. Thank you to each of you for your compelling 
testimony today. We will now start with a round of questions. 
First will be Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. Thank you for your 
courtesy.
    Mr. Roberts, is it true that 50 percent of BIE students do 
not graduate?
    Mr. Roberts. I believe it is, Senator.
    Senator McCain. Is it true that BIE student test scores 
trail by double digits compared to the Native American students 
who attend public schools?
    Mr. Roberts. I believe that is true also, Senator.
    Senator McCain. Here we have a proposal to allow, if the 
parents desire, another opportunity to provide their children 
with an education.
    Overall, Senator Begay, do you believe the Navajo families 
are satisfied with BIE schools?
    Mr. Begay. I think your indication of the five out of ten 
students attending BIE schools do not graduate from high school 
is a startling statistic. What if we could give ESAs to those 
students who would not have made it to graduation otherwise?
    The Navajo Nation, St. Michael Indian School has been on 
the Navajo Nation since 1902. They have a 99 percent graduation 
rate; 98 percent of their graduating class goes on to some 
post-secondary institution.
    Essentially, this is a time where we should not focus on 
the systems of education but rather focus on empowering Native 
American families to choose. I think the term choose is 
rightfully a correct term to use because no one is forcing 
Native American families out of BIE schools. This is a choice 
they would make themselves and they have the choice to come 
back. This is an opportunity in the true essence of 
opportunity, a form of self-determination.
    Senator McCain. Ms. Whitefoot says that another concern 
NIEA has with this legislation is the academic comparison 
between students attending BIE funded schools and those 
attending schools elsewhere.
    I think that is a real concern, Ms. Whitefoot. That is the 
reason why we are looking at Senator Begay's proposal. That is 
a terrible comparison. In fact, only 50 percent, and Mr. 
Roberts agrees, of BIE students graduate.
    Believe me, I am not surprised at your opposition. I have 
never met anyone associated with your organization who would 
give parents and children an opportunity to leave a school that 
has a 50 percent graduation rate.
    I am not surprised but I think it is very hard to allege 
that somehow the infrastructure would be harmed if a student 
now costing $15,000 a year for a BIE school to attend another 
school such as St. Michael on the Navajo Reservation which 
graduates 99 percent of their students.
    I certainly am not surprised at your opposition. I would be 
astounded if you did. I have never seen an organization such as 
yours support an opportunity for Native American children or 
American children to have another opportunity.
    Senator Begay, have you talked to other tribal members and 
the tribal council about this proposal of yours? Have you had a 
conversation with the tribal leadership?
    Mr. Begay. Yes, we have. There has not been any formal 
positions of support by tribal governments themselves but 
tribal leaders have come out in support of the proposal.
    I think it is important to mention that it is important to 
continue to support our public and BIE schools across the 
country. They are truly doing the best they can with the 
limited resources they do have but we do not have time to fight 
and we do not have the luxury of fighting over educational 
systems versus school choice options.
    I will give you one example. There is a school near the 
Navajo Nation that has a graduating class this year of 62 high 
school seniors, only 4 of the high school seniors right now 
have a GPA of over 3.0.
    What do we expect for the future of this community? Should 
we not give them the option or choice for an alternative or an 
opportunity to empower themselves or their families to enroll 
in online schools, to enroll in home tutoring or to enroll in 
private schools if that is something they choose to do?
    This is a choice and I think this is truly an essence of 
what self determination is by empowering Native American 
families to decide what they think is in the best interest of 
their own child.
    Senator McCain. Mr. Roberts, I think it is really 
remarkable that according to GAO the last time the BIE 
inspected the safety of a BIE school in Arizona was in 2011. 
Maybe you can supply for the record a rationale. Five years 
have elapsed and there has not been a safety investigation of a 
BIE school.
    I will let you respond right now if you would like.
    Mr. Roberts. Sure, Senator. I am happy to provide that 
information for the record. I do want to say that when that GAO 
report came out, it was obviously very concerning to me as 
well.
    We will, I pledge to this Committee and I pledged to the 
House Appropriations Committee as well, that we will have every 
school inspected this year. Not only that, it is in the 
performance plans. After that report came out, we put it in the 
performance plans of every regional director that those be 
inspected. We are hiring seven new inspectors that will be 
reporting to the Director of BIE.
    I appreciate your concerns.
    Senator McCain. I am really happy to hear that you are 
going to take those actions. Has anyone been fired for the fact 
that it has been five years?
    Mr. Roberts. No one has been fired, Senator.
    Senator McCain. Mr. Chairman, I ask your indulgence. Mr. 
Roberts wanted to respond to something else I said.
    The Chairman. Yes, certainly.
    Mr. Roberts. Senator, as I said in the opening statement, I 
think we are with you on the goals of your legislation. A 
concern that we have is that we have a number of schools of the 
183 schools that BIE administers, 122 have less than 300 
students and 50 have fewer than 150 students.
    Our concern is that if money is removed from BIE to support 
these accounts, the cost per student will rise because many of 
these schools have only say one third grade class, so if you 
take four kids out of a 15-kid class for fourth grade, the cost 
per student is going to rise. BIE is going to be without those 
resources. That is a concern.
    The other concern is that while those funds are transferred 
to private accounts, at the end of the process, if it is a 
tribally-operated school, we are going to have to go back to 
that tribe, take that money and transfer it to the State. We 
also have questions about that.
    I just wanted to let you know that a lot of our schools are 
small schools. We appreciate the goals you are trying to put 
forward but the impacts on the students in BIE schools is 
concerning.
    Senator McCain. I thank you for that. I understand your 
concern. I think a lot of us are also fiscally conservatives 
but when you have a 50 percent graduation rate, we are going to 
have to think outside the box.
    I have been a member of this Committee for many, many 
years. We have not seen a significant improvement. It is not 
because of dedicated men and women who work in these BIE 
schools but it is a system, I think, that deserves some new 
approaches.
    I would suggest that Senator Begay has come up with a 
proposal that deserves all of our consideration. Hopefully 
thanks to this hearing, Mr. Chairman, maybe we could work to 
resolve some of those concerns you have.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCain.
    Senator Franken?
    Senator Franken. Thank you, Mr. Chairman.
    Mr. Roberts, as you know, the children at the Bug-O-Nay-Ge-
Shig School at Leech Lake have faced horrendous conditions in 
their classrooms for years. While this took a number of years, 
I am glad that I can finally get some good news which is we are 
going to begin replacing, as I understand, the school.
    Yesterday, your agency announced a plan to put nearly $12 
million into fixing and improving the Bug School, the high 
school. Thank you. Please extend my sincere thanks to Secretary 
Jewell.
    This took a lot of work from lawmakers, the tribe and the 
Obama Administration and I am thrilled that we have taken this 
huge step toward rebuilding the school and after so many years, 
we are able to claim victory.
    Going back to 2009, I have been fighting for funding to fix 
the school. The facility has mold, leaks, was cold, 
structurally unsound, the kids had to run from the school if 
the wind exceeded 40 miles an hour, sometimes in 20 degree 
below weather, to another building because it was a pole barn 
that was not structurally sound.
    I want to make sure that the process of fixing the Bug-O-
Nay-Ge-Shig School moves quickly and efficiently. Can you give 
me your assurances there will be no obstacles in getting this 
funding to the school this year?
    Mr. Roberts. Senator, I will do everything I can to make 
sure this building gets replaced and that the money gets out 
this year. We have the money to do it. We want to get it 
replaced. We do not want to get it fixed. We want it replaced 
and we are going to work as closely as we can with the tribe to 
get that done as quickly as we can.
    Senator Franken. Thank you. I just want to make sure there 
are no hurdles for replacing the school.
    Senator McCain talked about the success rate at BIE 
schools. It seems to me this is so circular. I have discussed 
this at so many of our Committee hearings where we have 
unemployment in some of these tribes.
    Dr. Boham talked about the suicide rate. If you look at the 
housing on the reservations I have been to, there are 
shortages, substandard, families living with other families, 
the incidence of children living with other families being 
exposed to trauma, sexual assault, neglect, drug abuse, 
witnessing those things and witnessing domestic violence. 
Unemployment rates on reservations are as high as 65 to 75 
percent.
    This is not all about the schools. Ms. Whitefoot and Dr. 
Boham, I want to ask you about housing, trying to get teachers 
to come, trying to get a teacher to convince his or her spouse 
to come and bring their children when the housing is 
substandard.
    Can you talk to that issue and the discussion we have had 
today about failure and success rates at schools because this 
is not as simple as it sometimes is made to sound. Can you 
speak to that, Dr. Boham and Ms. Whitefoot?
    Dr. Boham. Mr. Chairman and Senator Franken, yes, it is a 
very complicated and interconnected set of issues because they 
are community issues. Yes, our reservation is situated better 
than many but it is an issue to find housing to recruit, 
particularly people with Master's and doctoral degrees for 
tribal colleges to come and be faculty.
    Many of us have started training elementary, preschool and 
secondary teachers from the community so that they will be 
interested to stay in the community and are grounded there 
already.
    As people move into an area, in our area, for example, many 
of the houses that were in home ownership have gone into 
foreclosure, so we have a large number of homes that are for 
sale. Those people then moved into the rental market. That 
closed a great deal of the rental market to students.
    We do have student housing on our campus. We have some 
dorms and we have family housing but there is a moratorium 
right now for building any additional student housing because 
the Pablo City and Water Company does not have adequate water.
    Senator Franken. Can I get the more general feeling of 
Indian country, Ms. Whitefoot?
    Ms. Whitefoot. Last year, this Committee heard testimony 
from Chairwoman Karen Diver of the Fond du Lac Band of Lake 
Superior Chippewa in Minnesota. She testified that close to 20 
percent of her tribe's service population lives in overcrowded 
homes. This is not unusual to this particular tribe; it is all 
over Indian country.
    I do understand the importance of having teachers and 
school administrators in the community. I was challenged by 
living and teaching on the Navajo Reservation at a public 
school where housing was not available.
    The work we are doing, particularly with the bill you have 
around early childhood education, we really need to take a look 
at those kinds of opportunities because it begins by beginning 
with the parents and the children and even our grandparents who 
are raising these children as well as foster care.
    It begins there but we also make certain that a lot of the 
legislation that is out there, I have been on tribal council 
from my own tribe and in various elected positions for my own 
tribe as well and have overseen our NAHASDA project on behalf 
of our tribe.
    In many of our situations, the housing conditions are such 
that we do not allow the opportunity to provide for education 
even in our housing programs, HUD houses we are talking about. 
You are limited in what you can do.
    I think we need to work to get some of the bureaucratic red 
tape out of the way that you are doing with the early childhood 
education in some of these other programs such as the Native 
American Housing Assistance Act so that we can provide those 
kinds of services that we do need.
    Typically in HUD housing, you have young people, young 
families wanting a place to live to get a start in life, so 
they go to the HUD homes. That is where we need to be providing 
the education and support for these young people to continue 
educating their own children and families.
    Senator Franken. Thank you.
    Sorry, Mr. Chairman, for going over. I just want to say to 
Senator Begay, the kid you talked about saying, what does it 
matter, why do you care, I think we on the Committee have to 
answer that kid and say we care. My frustration has been that 
we do not show that we care. We do not show it by levels of 
funding.
    Thank you.
    The Chairman. Thank you, Senator Franken.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Chairman Barrasso and Ranking 
Member Tester. Thank you for pulling together this hearing.
    I would first like to welcome Dr. Sandra Boham. It is good 
to have you here, the President of the Salish and Kootenai 
College from the great State of Montana.
    Dr. Boham. Thank you.
    Senator Daines. It is good to have you here. Thank you for 
making the trip.
    Montana is home to three Bureau of Indian Education 
facilities and seven tribal colleges and universities. In a 
recent conversation with Liberty Erickson, Superintendent of 
the Northern Cheyenne Tribal School, my office was horrified to 
learn that the school had a broken fire alarm system and not a 
single disability accessible bathroom.
    It gets worse. There is no drinkable tap water on campus. 
In fact, the school was forced to purchase bottled water for 
the classrooms.
    There was one week this year when the purchase order for 
bottled water got held up, leaving teachers with no other 
choice than to bring in bottled water themselves for their 
students on their own dime.
    That kind of environment is not conducive to learning
    Mr. Roberts, there are 225 students at that school. How, in 
good conscience, can we allow small children to be in a 
building like that?
    Mr. Roberts. We absolutely cannot. That is unacceptable. 
That is why when the GAO report came out, we moved swiftly to 
hiring seven new safety inspectors, having every school 
inspected this year, and it is going to be in the performance 
plan for those folks responsible.
    Senator Daines. I think Senator McCain brought up the GAO 
report showed there had not been a single health and safety 
inspection at any of Montana's BIE facilities from 2012 to 
2014.
    I appreciate the follow-up. The question is, what else is 
out there? If that was missed, have we gone through a thorough 
review of all the expectations? I assume this was codified 
somewhere that these inspections need to take place. What else 
has not taken place?
    Mr. Roberts. The other thing we are doing is we have 
contracted with a company to prepare a report to look at what 
it will take over the next five years to bring all of the poor 
schools into good condition. I expect to have that report in a 
couple months. That is number one.
    Senator Daines. Were these inspections part of an 
expectation that says this is something you should do, conduct 
these annually?
    Mr. Roberts. Yes.
    Senator Daines. That was missed. I assume you went through 
and audited all your other requirements. What other inspections 
beyond this one were not being completed or requirements not 
being met?
    Mr. Roberts. I do not know the answer to that today, 
Senator. I can certainly provide an answer for the record. I do 
want to say that part of our reorganization right now as BIE 
operates, as this Committee is well aware, the functions for 
facilities are operated under our Deputy Assistant Secretary 
for Management and BIA, particularly out in the regions.
    Our reorganization, as we are moving forward to implement 
it now, all of those folks responsible for facilities will 
report directly to the BIE director so that they have line 
authority to address these issues rather than having to go 
across the department. Reorganization is key to addressing 
these situations going forward.
    Senator Daines. I appreciate the reorganization. I would 
ask as a follow up item what other requirements are set in the 
standards would not be met? I assume this is like a tip of the 
iceberg issue. I have to believe there are other requirements 
that also are not being met. It would be great to see what else 
you found and what action is being taken to remedy that.
    Countless studies have shown that academic achievement is 
linked to building conditions. It is crucial that we foster an 
environment best suited for learning for the sake of our tribal 
children, especially when we get into potentially life 
threatening situations.
    I am going to pivot over to a happier conversation, Dr. 
Boham, and the work you are doing to preserve Native American 
languages. All Americans have a stake in the fight to preserve 
Native languages. They are a shared part of our national 
heritage.
    Last year, Senators Schatz, Murkowski, Sullivan and I 
introduced an amendment which was subsequently enacted into 
public law to study the benefits of Native American language 
immersion education.
    Dr. Boham, I understand SKC is doing quite a bit of work on 
language and cultural revitalization. I would like to hear 
about those efforts.
    Dr. Boham. We are. We have been partnering over this last 
year to really revitalize and build the language effort in our 
community. We do have a language immersion school. It is a 
private tribal school. Our Head Start program is requiring now 
that all of their teachers have a year of language.
    We have been working with those schools in preparing 
language teachers. We will be putting forward a two year degree 
in language teacher preparation. Montana has a Class VII 
certification for language teachers but it is all around the 
language and culture piece. It does not require the methods, 
strategies and curriculum development that teachers need.
    This program we are putting together will address that 
specifically. Our goal is to create language teachers in Salish 
and Kootenai because right now with the need for language 
teachers, we cannot meet it.
    Senator Daines. With the investment you are making, what in 
your eyes as a professional educator makes Native language 
education so important?
    Dr. Boham. Native language education is critical because 
that language contains the essence of our culture. It is what 
allows for our spiritual, ceremonial and cultural life to 
flourish. There are many aspects of the culture that have no 
English translation, so we need to keep those Native languages.
    The other part of it is that it reinforces and builds that 
sense of student identity which we know contributes to their 
persistence and resilience in schools. Many times students will 
begin a language path and then they take that home and educate 
their parents. It reinforces that strength within their 
parents.
    Many people in our community around the issue of language 
are dealing with effects of historical trauma. Building that 
strong sense of identity and how it contributes to their 
academic success is why language is critical as is culture.
    Senator Daines. I have one quick question. I am out of time 
but I will try to make this one fast.
    There has been some challenge I know with three tribal 
colleges participating in Federal student loan programs. I have 
supported maintaining that participation on a voluntary basis 
to alleviate the potential burdens on tribal college students.
    Could briefly describe why it is difficult for TCU students 
to take on Federal student loans?
    Dr. Boham. There are only now two tribal colleges that 
currently do student loans. We are one of them. We have a 
person dedicated 100 percent to helping to keep our student 
loan default rate below 30 percent. Thirty percent for three 
years and you are ineligible for all scholarships, Pell grant 
and all of that.
    What happens is because we have small numbers of students, 
it does not take very many to put you into that 30 percent. 
Greater than that, we work very hard to have scholarship 
opportunities for these students because we want them to 
graduate with their under graduate degree, be it a two year or 
one year certificate or baccalaureate, with the least amount to 
no debt that they possibly can because we are educating people 
we want to contribute within our own communities across the 
country. Every tribal college will tell you this.
    If they leave our schools and have debt and then work in 
our communities, which typically have lower wages, they are not 
going to be able to do that. It is critical that we keep their 
debt level low, particularly if we want them to go on to 
graduate programs which tribal colleges need students to do.
    We want them to come out, go to work, be able to contribute 
and not be suffering under that debt.
    Senator Daines. Thank you, Dr. Boham. I appreciate it.
    The Chairman. Thank you, Senator Daines.
    Senator Schatz?
    Senator Schatz. Thank you, Mr. Chairman.
    I am struck, Dr. Boham, by a phrase you used earlier in the 
hearing, strengthen identity. I wanted you to talk a bit about 
language immersion both from the perspective of your expertise 
as a tribal member but also from the perspective that you have 
as an educator.
    It seems to me that what happens in Native communities, 
including the State of Hawaii, is this disconnection from 
culture, from land and from community, this sort of 
disengagement that I actually think a lot of young people are 
experiencing also in non-tribal communities, but especially in 
Native communities.
    Could you talk, first, on a personal level about what 
happens with a kid experiencing an immersion school and how 
they avoid becoming a statistic, how they chart a path for 
themselves based on pride in who they are?
    Dr. Boham. I am going to start with something that sounds 
very simple which is motivation. We know our students are not 
necessarily motivated by personal gain. They are motivated more 
by how their personal success is going to impact their family 
and community.
    When we talk to students, contained within that language 
and the cultural world view is how does what they are doing 
going to impact in a positive way their families and 
communities? That is the beginning.
    Many times in these immersion schools, it is the first time 
that world view aligns with why they are doing what they are 
doing. It creates that relevance so that in a language 
immersion school, you are taking your language, understanding 
pieces about your history, culture and identity that you may 
not have had the opportunity to be exposed to before, whether 
it is a child or adult working in that environment.
    That begins to build that sense of belonging and sense of 
identity that this is a place for me and I can be successful 
here and I have an obligation to do this. I have an obligation 
to be successful, to contribute to my community and my family.
    It allows students to have a stronger sense of themselves 
which leads to that resiliency. That resiliency helps them to 
persist and overcome barriers that they might not have been 
able to overcome previously.
    In schools that do not provide culture and language, 
students do not have that core strength oftentimes to deal with 
those barriers on a daily basis. In immersion schools, those 
barriers are removed.
    Senator Schatz. Thank you. I appreciate that.
    This is a question for both Ms. Whitefoot and Dr. Boham. 
Part of the reason for immersion schools and culturally 
grounded education is exactly what you discussed but the other 
part is self determination.
    I am wondering about the balance between developing 
expertise and best practices and how that kind of interacts and 
intersects with self determination? In other words, we do want 
national standards and national best practices in terms of 
immersion and culturally appropriate education.
    On the other hand, there can be some friction and it can 
run counter to the desire for communities to chart their own 
course when it comes to education and culture. Starting with 
Ms. Whitefoot, please?
    Ms. Whitefoot. I am pleased to have come here today as a 
participant in the Department of Education's negotiated 
rulemaking meeting held this morning and was able to witness 
that friction that does occur, particularly when it comes to 
English language proficiency as well as assessments.
    In the discussion around English language proficiency, when 
you take a look the new reauthorization of the ESSA, it does 
not really address the needs of Native children. The 
representatives we had in there were advocating for Native 
language immersion.
    At the same time, the chairman on the negotiated rulemaking 
committee spoke to the importance of sovereignty and self 
determination. In terms of determination, when it comes to 
schools, it is through the language immersion programs that we 
have the language programs we have in our schools and that we 
are able to realize true self determination and sovereignty.
    You should know that best too, coming from the State of 
Hawaii. We have gone over there and studied some of the work 
that you are doing. Tribes are looking at those best practices 
and the research being done now.
    It was no surprise that we also have our Native Hawaiian 
sister attending this meeting because we are also working 
together to address these issues and also to get some of the 
assessment tools being used.
    We are not always involved in those processes at the 
Federal or State level. We just finished our legislative 
session in Washington State, so I think what ESSA is doing is 
motivating us to have that conversation with one another, with 
American Indians, Alaska Natives and Native Hawaiians on this 
topic alone.
    I could go on and on but I will not.
    Senator Schatz. Thank you, Ms. Whitefoot.
    Dr. Boham, quickly. My time has expired but I do want to 
hear from you.
    Dr. Boham. I cannot speak a whole lot to the rulemaking Ms. 
Whitefoot discussed, but I can tell you that right now we have 
outcomes every student is expected to meet. We have determined 
what it means to be a proficient language teacher, the tribes 
have.
    We have been out of the fray in that way a great deal and I 
would imagine what you will see is a continued push around the 
local control issues of what those outcomes and standards 
should be for those language schools. I think that is where the 
discussion is really going to come out for those schools.
    Senator Schatz. Thank you very much.
    The Chairman. Thank you, Senator Schatz.
    Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    First of all, thank you all for your testimony. I very much 
appreciate you coming and testifying.
    I will start with you, Larry. The BIE released its list of 
the next ten replacement schools earlier this week. You 
obviously have a plan for those schools but there are still way 
too many schools that are in poor condition at the BIE.
    The SAFETY Act that I introduced would require the 
department and OMB to come up with a ten year plan to get all 
the BIE facilities, not into fantastic condition, but good 
condition. I want to thank you for supporting that idea.
    Does the department have its own larger, long term plan on 
how to address the remaining backlog, ASAP?
    Mr. Roberts. It is something we are actively working on. As 
I mentioned earlier, we are waiting for a report I should have 
in about 60 days that will set a pathway forward for those 
schools in poor condition to get them to good condition.
    After that it is done, we have asked them to look at 
basically what you have asked for, sort of a longer, 
comprehensive plan to keep these schools in good condition.
    Senator Tester. We look forward to it. Senator Daines 
talked about it and Senator Franken has talked about it. The 
bottom line is in a lot of these schools, you could be a top 
notch student or have a top notch teacher but if the conditions 
are not there to learn, the classrooms just are not adequate. I 
do not want to reiterate it, you know the issues.
    Your testimony mentions that you heard about the idea of 
creating BIE as a standalone agency during the tribal 
consultation process for designing the current reorganization. 
What did you hear exactly from the tribes during consultation 
about the idea of making BIE a standalone agency?
    Mr. Roberts. Senator, I was not involved with those 
consultations. What I heard exactly I will have to submit for 
the record.
    Generally, there was a greater focus from tribes in terms 
of strengthening our existing organizations as opposed to an 
independent agency.
    Senator Tester. Have you heard anything from the tribes 
about vouchers?
    Mr. Roberts. I have not. Another concern we have about the 
vouchers is that it is easy to over imagine the promise of a 
private school but the fact of the matter, Senator, is that 
they are selective so not every kid is going to get into that 
private school.
    Senator Tester. That is true.
    Mr. Roberts. It is hard to get data from those private 
schools because they are not going to provide that type of 
data. I just want to say that while it may help some students, 
it is certainly not a cure all.
    Senator Tester. My understanding is those vouchers would 
take money away from current BIE schools, is that correct?
    Mr. Roberts. It would take money away from current 
tribally-operated schools, Senator.
    Senator Tester. Has BIE done an estimate about how funded 
or underfunded those BIE schools are already?
    Mr. Roberts. I do not have those numbers off the top of my 
head but I think everyone knows they are underfunded, Senator.
    Senator Tester. Thank you.
    Others have mentioned the change in leadership at BIE and 
the director being demoted last week in response to an IG 
investigation. How is that change in leadership going to impact 
BIE reform moving forward?
    Mr. Roberts. We are moving full steam ahead, Senator.
    Senator Tester. It will have no effect?
    Mr. Roberts. It will have no effect.
    Senator Tester. What do you see as the path forward for 
rebuilding tribal trust in the BIE management?
    Mr. Roberts. It is going to take a lot of one-on-one 
conversations with tribal leadership. We are actively doing 
that right now. Deputy Assistant Secretary Ann Marie Bledsoe 
Downes is going to be meeting with Southern Governors Pueblo 
Council next week. That is a start but we are going to 
extensive outreach with all tribal leaders.
    Senator Tester. That is a ton of tribes.
    Mr. Roberts. Senator, they care about this when we hear 
from them.
    Senator Tester. I am going to go to you, Dr. Boham. Your 
testimony mentioned having classes at SKC in church basements, 
empty buildings and shared facilities. I appreciate your 
creativity but that is a problem.
    What overall facility needs does SKC have? Have you done an 
assessment? Can you tell us what you need?
    Dr. Boham. That was previous when it was first beginning in 
the early, early days. Today, we have a beautiful campus with 
amazing facilities.
    Senator Tester. Good.
    Dr. Boham. Yes.
    Senator Tester. That is good news. I think Senator Daines 
talked about the fact that we have a tribal college on every 
reservation.
    Dr. Boham. Yes.
    Senator Tester. Seven reservations, seven tribal colleges 
and they are split up. That is good news. You would say your 
facilities are above average and adequate?
    Dr. Boham. Yes, but that is not the case for all tribal 
colleges across the Nation.
    Senator Tester. I agree. It speaks well of your tribal 
leadership, I will tell you that. It also speaks well of the 
fact you guys are prioritizing education at SKC and that is the 
key to breaking the cycle of poverty, in my opinion.
    Senator Tester. Regarding early childhood programs, Salish 
Kootenai College has a thriving early childhood education 
program as well as its own childcare center for students and 
faculty. You have my applause for that.
    Dr. Boham. Yes.
    Senator Tester. How has that program impacted the quality 
and availability of early childhood education within the 
Flathead Reservation and the State of Montana as a whole?
    Dr. Boham. Our childcare center is currently being used 
both as a childcare center and as a preschool laboratory 
facility. It has improved childcare within the reservation 
drastically because it makes childcare available for our 
students. Most of them would not be able to afford childcare if 
they had to find it someplace else. Finding quality childcare 
with educated caregivers is very difficult.
    Montana just implemented pre-K-3 teacher licenses. We have 
a curriculum now to offer that licensure. We are anticipating 
an increase in seeing people who are skilled in teaching 
children between preschool and third grade which is a very 
different group of children to teach than elementary school.
    I think it will have a huge impact on our Head Start, our 
pre-schools and our pre-schools operating in conjunction with 
our public schools.
    Senator Tester. Thank you, Doctor. I appreciate your 
leadership. From one Montanan to another, thank you very much 
for that.
    One again, thank you all for your testimony and thank you, 
Mr. Chairman.
    The Chairman. Thank you, Senator Tester.
    Mr. Roberts, your testimony reflects that the 
Administration really does not fully support the RAISE Act. 
Your concern is the creation of an independent agency within 
the Department of Interior.
    The purpose of the independent agency within the department 
would clearly define the trust responsibility to Indian 
students. Can you talk a bit about how we can get the 
Administration support when we both want reforms that are going 
to raise academic achievement and economic opportunity when 
young people graduate?
    Mr. Roberts. We do appreciate a number of different aspects 
of your bill. You focused on the one that gave us concern, the 
independent agency. We would like to work with you and your 
staff because I think we both have the same goals in mind which 
is empowering the BIE director to have that line authority over 
the various offices that he needs to have to be able to 
function effectively.
    I would like to have someone from my staff at a high level 
work directly with your staff to see if we can get there.
    The Chairman. I appreciate that. We look at the GAO report 
that was released. There are a lot of concerns. I think anyone 
who reads it has those concerns. I know everyone here on the 
panel and people on both sides of the aisle have concerns.
    They focus on safety inspections. The report concluded the 
agency ``cannot ensure that the learning and work environments 
at BIE schools are safe.'' How will the BIE ensure the safety 
of these schools? What steps are currently being taken to 
address the concerns from the report?
    Mr. Roberts. We are going to have every one of those 
schools inspected this year. We have advertised seven new 
positions for safety inspectors. Once all those inspections are 
completed, as they are being completed, we will move forward in 
a timely fashion to address those, providing the funding that 
we have.
    The Chairman. Ms. Whitefoot, the Department of Interior has 
been working on restructuring the Bureau of Indian Education 
for the past two years. The department's proposed restructuring 
appears to neglect the GAO's recommendation in its 2013 report 
on some of the deficiencies.
    Those recommendations include, among other things, clear 
lines of decision-making authority processes. How did the BIE 
reach out to you, to the National Indian Education Association, 
regarding the restructuring?
    Do you think the current structure, whereby the facilities, 
the personnel and the procurement decisions are made by another 
agency, not the Bureau of Indian Education but another agency, 
is appropriate for student achievement and safety?
    Ms. Whitefoot. BIE has worked intimately with the National 
Indian Education Association regarding the reform. However, it 
has been mostly on communication and network with our 
constituency.
    About three years ago at our annual convention in Rapid 
City, we did host a planning meeting with the BIE. During the 
past two conventions we have held more recently in Portland, 
Oregon, we held a town hall meeting with the Bureau of Indian 
Education.
    I do want to say also, because I have been in education for 
about 40 years, I have also been a BIE-funded school 
administrator as well, these are not short term issues but are 
long term issues that have been going on for many, many years.
    We have had a direct ask from our NIEA membership asking 
for a timeline that lays out the entire plan for the 
reorganization, a budget specific to the reform itself and also 
the proposed 2,000 changes as well.
    We also want to know how the BIE will assist school 
personnel in the event that a tribe will make significant 
staffing changes because we all know that tribes can take over 
these funds as well.
    It is important for us to know what proposals are out 
there. It is important for communication to be open and 
transparent during this process.
    The Chairman. Thank you so much.
    Senator Cantwell."

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
having this hearing. It is very important for those at the 
witness table. There probably is not a more important issue in 
Indian country than exactly how our education system is working 
or lack thereof and transparency.
    I know before I got here there was some discussion of the 
exact process and the new list being published about schools. I 
wanted to ask Mr. Roberts about that list. Catching up on the 
60 schools or so that you gave a guesstimate to before I got 
here, what do you think the cost is? What is the cost it would 
take to address this backlog of necessary school construction?
    Mr. Roberts. Senator, I do not have an answer for you on 
that today. I can look to see. We are studying what it would 
take to bring all of the schools in poor condition up to good 
condition. I expect to have that report within 60 days.
    When the negotiated rulemaking committee forwarded the list 
of schools, the 10 schools to be replaced, they suggested that 
we move forward with some subset of those schools. We are in a 
crisis, we cannot wait. I said we need to move forward with all 
10 of these schools, some of which, Senator, are in your home 
State, but there are other schools across the country.
    We do have a crisis here. We have to move forward quickly. 
Obviously that is going to take appropriations as well.
    Senator Cantwell. I am definitely very interested. For 
example, the Quileute School made that list but there is no 
timeline, as you just said, there is no funding, so they are in 
a tsunami zone. I am glad they are on the list but I also want 
to understand what that means.
    I feel there is too much mystery left here. For an issue 
that all our colleagues care about, it would be much better to 
know what the backlog is and what it is going to take to clean 
it up.
    I also want to bring up the Yakimas because that is another 
example of kind of confusing criteria. They thought the 
criteria of being 50-plus years old with 75 percent of their 
classes in modular buildings, they had been in the building for 
37 years but found out the building was actually older than 
that.
    All I am saying is I think this is about dilapidation or 
unacceptable conditions and then telling us what they are. I 
feel like very year it is a mystery. It is just a mystery.
    Mr. Roberts. Every one of these 10 schools is on the list. 
We have funding to provide them for planning to start the 
planning process for replacement. That will happen this year.
    Senator Cantwell. For full construction?
    Mr. Roberts. Planning for construction, that is right. The 
planning dollars they will receive this year. Then we will move 
forward subject to appropriations based on the readiness after 
that planning.
    We are moving full steam ahead. We are going to be working 
with each of these tribal schools not only on this list but on 
the 2004 list that we have closed out to move forward as 
quickly as possible.
    Senator Cantwell. Mr. Roberts, do you think this process is 
working?
    Mr. Roberts. I think there has been a lot of criticism 
about the process. We are fixing it is the short answer.
    Senator Cantwell. I hope so because I think when it is 
mysterious, by that I mean you do not know what you are going 
to get, what year you are going to get it, whether you meet the 
criteria or not, how can you build a momentum here in Congress 
to support the backlog if we said we really have a backlog of 
50 to 60 schools that are in this very unacceptable condition 
which I think every one of our colleagues shows up here and 
says at one time or another?
    Tell us what it is that we need and how long that would 
take and then let us work together across the aisle to try to 
get the funding so that we can understand the need. I think the 
fact it is not categorized in a way that is transparent enough 
leaves us short of the resources for Indian country. I think we 
really do need to focus in on this.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Cantwell.
    With that, there are no further questions today but members 
may still submit follow up written questions for the record. I 
would ask that you respond quickly. The hearing record will be 
open for two weeks.
    I want to thank each of you for being here today, for your 
time and your testimony.
    With that, the hearing is adjourned.
    [Whereupon, at 3:52 p.m., the Committee was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Bill John Baker, Principal Chief, Cherokee 
  Nation submitted to the House Interior Appropriations Subcommittee--
                             March 18, 2016
    Chairman Calvert, Ranking member McCollum, Chairman Cole, and 
distinguished members of the subcommittee:
    Osiyo.
    My name is Bill John Baker, and it is my deep honor to serve as 
Principal Chief of our country's largest Native American tribe, the 
Cherokee Nation. Thank you for granting me an opportunity to speak with 
you today.
    The state of Oklahoma held its presidential primary earlier this 
month, and in the days and weeks leading up to Election Day the good 
people of Oklahoma were inundated with a host of television and radio 
ads that said Washington is broken. Congress doesn't work for the 
benefit of the people, the President doesn't listen to Congress--
Washington just can't get things done.
    About the same time these ads were airing, the Cherokee Nation was 
in the process of finalizing an historic agreement with the Indian 
Health Service that will dramatically increase the capabilities of 
Indian Country's largest tribal health care system and usher in a new 
era of health care in northeast Oklahoma.
    Washington isn't irreparably broken--as our story shows, it can get 
things done.
    A few years ago I sat before this subcommittee and asked you to 
urge IHS to receive a round of new applications for the Joint Venture 
Construction Program. Many of you then signed onto a bipartisan letter 
led by Chairman Cole and Ranking member McCollum that called on IHS to 
reopen the program. This subcommittee pushed the full committee to 
include language in its committee report stressing the program's 
importance. Members of both parties augmented this effort with calls 
and letters to IHS and the administration.
    Last year, IHS reopened the Joint Venture Construction Program and 
we submitted an application.
    And later this year, the Cherokee Nation will break ground on what 
will be the largest facility ever built under the JV program. This 
450,000 square foot facility will be constructed in our capital city of 
Tahlequah at an estimated cost of more than $150 million. Per our 
agreement with IHS, we will provide the upfront construction costs, 
alleviating IHS of its trust responsibility for health care facility 
construction and saving valuable federal resources. Once the facility 
is completed, IHS will provide annual funding packages to cover 
staffing and operations costs. This agreement--approximately $80 
million a year for a minimum of 20 years--is the largest ever struck 
between IHS and a tribe.
    This health care facility, which we expect to complete in late 
2019, will be absolutely transformative for the entire Cherokee Nation 
and future generations of tribal citizens in northeast Oklahoma. It 
will expand our ability to deliver world-class health care and allow 
for the introduction of specialty services in the fields of surgery and 
endocrinology. The facility will also house many additional new 
upgrades to our ambulatory care, podiatry, audiology, dental care, eye 
care, primary care, specialty care, behavioral health, health 
education, nutrition, and diagnostic imaging capabilities.
    During my tenure as Principal Chief, no issue has been more 
important to me than the continued expansion of our health care 
services. It has been my mission to help drive down the extreme health 
disparities that plague our region and the entirety of Indian Country. 
Over the past five years we have wisely invested more than $100 million 
of our business profits in clinic construction, expansion, and 
renovation in an aggressive effort to improve the wellness of our 
citizens, both individually and collectively.
    The new state-of-the-art health center will be the cornerstone of 
this effort and the crown jewel of our health care system. When we 
envisioned an expansion of the W.W. Hastings complex, we planned to 
take a big step forward--instead, we're taking a giant leap.
    This is a monumental undertaking. This facility is far and away the 
largest project IHS has ever approved. It will be twice as large as the 
next largest IHS joint venture facility. In three short years, when we 
dedicate this new complex, we will know that future generations will 
live better and healthier lives.
    But there is far more work to be done.
    Everyone in this room knows the dire need for facility construction 
and facility repair in Indian Country goes far beyond the health care 
sector.
    For instance, the construction and rehabilitation backlog for BIE 
schools is an estimated $1.3 billion, and considering that estimation 
was based on just 68 schools, not the 78 that recently applied for 
school construction and rehabilitation funding, the figure may be 
somewhat conservative. Fifty-five of those 78 schools are deemed to be 
in ``poor'' condition, and the other schools were at least five decades 
old and educating the vast majority of their students in portable 
buildings.
    We applaud the subcommittee for highlighting this issue and 
dramatically increasing the education construction account in the FY 
2016 appropriations measure, and urge you to continue that momentum 
with additional funding for this purpose in FY 2017.
    That said, we also need to be realistic about how far that funding 
will go. The schools that applied for education construction funds last 
year are in need of immediate repair--or in some cases, total 
replacement. BIE, however, is still working to complete a priority list 
created over a decade ago. If today 55 schools are considered to be in 
``poor'' condition, how bad will they be in a decade or two or three 
when BIE has worked through enough priority lists to finally reach all 
of them?
    We further understand the fiscal challenges you face when putting 
together your bill. If you were to appropriate the necessary amount to 
repair or replace all of these schools, every other program under the 
subcommittee's jurisdiction would face the prospect of flat funding or 
cuts.
    It is time for Congress, the administration, and Indian Country to 
consider new ways of tackling this vital issue and new solutions for 
school construction. Otherwise, we will never be able to address all of 
the needs. We applaud the subcommittee for urging the administration to 
``consider alternative funding mechanisms appropriations for replacing 
schools and facilities, including the use of bonds'' in last year's 
House committee report.
    One possible solution could be a BIE equivalent of the IHS Joint 
Venture Construction Program.
    We operate Sequoyah High School, a BIE school in Tahlequah, OK. 
Sequoyah has an enrollment of 367 students from 24 tribes and has a 
strict focus on academic success. Last year, Sequoyah ranked fourth 
nationally in the number of Gates Millennium Scholars per capita, and 
the 2014-15 graduating class earned over $3.7 million in college 
scholarships. Additionally, Sequoyah High School has a 100 percent 
graduation rate.
    Our students achieve in spite of Sequoyah's aging and generally 
insufficient facilities. Sequoyah consists of 17 structures, 13 of 
which are more than 40 years old. The main high school and the science 
classrooms are 49 years old, and the robotics classroom is 85 years old 
and located more than a quarter-mile from the main high school. In the 
face of these challenges, the robotics team recently captured the state 
championship.
    Approximately a third of Sequoyah students live on campus. At 
present, however, the residential dormitories have been relegated to a 
temporary dormitory due to the discovery of significant mold deposits 
throughout the entirety of both the boys and girls dormitories. This 
has placed a limit on the number of dormitory units available to 
students, which in turn negatively impacts enrollment (about 50 
students per year have been denied admission to Sequoyah simply due to 
a lack of dormitory space). Mold has been caused by leakage in roofs 
and plumbing systems and asbestos has been discovered in many 
facilities, requiring extensive abatement.
    A key problem at Sequoyah is major plumbing issues virtually 
campus-wide, resulting in a substantial amount of water leakage 
incidents. Aged plumbing systems have caused leakage issues in all but 
one building. This greatly contributes to the mold concerns that 
require extensive abatement and repair.
    BIE's Operation and Maintenance funding is not enough to meet the 
needs of the school, and, as such, the buildings continue to degrade, 
space continues to be an issue, and enrollment continues to fall.
    Like so many BIE schools, Sequoyah requires immediate assistance. 
Yet because of the great need throughout Indian Country, and the great 
cost to the Federal Government to replace many of these facilities, 
earlier this year BIE selected just 10 schools to move forward with the 
application process for school construction funding, and eventually 
will select just five to move forward with repairs. Sequoyah was not 
one of the schools selected to continue with this process.
    And considering the backlog, I find it hard to believe we will be 
selected any time soon under the current criteria and program 
guidelines. The need for repair, however, will still be there.
    This is why we need new ideas and solutions. If tribes were able to 
incur construction costs for these facilities in exchange for fixed 
operations and maintenance costs--like the IHS joint venture--we might 
be able to begin to alleviate some of the significant backlog and 
create new educational opportunities in Indian Country. If we maintain 
the status quo and wait for BIE to go through the entire list, we'll be 
in the same place year after year.
    We cannot simply wait for funding that is unlikely to come. The 
challenges are too great, and the consequences of delay are too much. 
Therefore, we urge the subcommittee and all of Indian Country to rally 
around new solutions to the problem of school construction, including a 
new joint venture-like program for BIE.
    Finally, we continue to support full funding of IHS and BIA 
contract support costs, and continue to call for acceptance of the 
proposal to reclassify CSCs as mandatory appropriations. As you know, 
the Cherokee Nation has long been a leader in the self-governance 
arena. We were among the first tribes to enter into self-governance 
compacts: our compact with the Department of the Interior was signed in 
1991, and we followed that with a compact with Indian Health Service in 
1993.
    We filed our first claim for contract support costs in 1994. For 
more than 20 years, the Cherokee Nation and other tribes have been 
litigating contract support cost issues to establish that the federal 
government's legal obligation to fully fund these costs is necessary to 
fulfill the policy of tribal self-determination. The U.S. Supreme Court 
has, on three occasions, confirmed this principle through rulings in 
Cherokee Nation et al. v. Leavitt, Salazar v. Ramah Navajo Chapter, and 
Arctic Slope Native Association v. Sebelius.
    Despite these rulings, the Federal Government has not always lived 
up to its obligations. When the United States does not fully pay 
contract support costs, we must find ways to make up the shortfall. 
This means realigning our priorities and reducing funds budgeted for 
critical health care, education, and other tribal services. For every 
$1 million that the Cherokee Nation must divert from direct patient 
care to cover contract support costs, we are forced to forego about 
6,000 patient visits. Failure to fully fund these costs impedes our 
ability to meet the tribal health care needs and the other needs of 
Cherokee citizens.
    Thank you again for this opportunity to testify.
    Wado.
                                 ______
                                 
               National Congress of American Indians (NCAI)
                                                     March 17, 2016
Hon. Jon Tester,
Hon. Maria Cantwell,
Committee on Indian Affairs,
U.S. Senate,
Washington, DC.

Dear Vice Chairman Tester and Senator Cantwell:

    On behalf of the National Congress of American Indians (NCAI), the 
oldest, largest, and most representative organization of American 
Indian and Alaska Native tribal governments, I write to express our 
support for the introduction of S. 2468, the Safe Academic Facilities 
and Environments for Tribal Youth Act (SAFETY Act). The SAFETY Act 
recognizes the various schools that contribute to the future prosperity 
of our nation and Indian Country, including Impact Aid schools, Tribal 
Colleges and Universities (TCUs), Department of Education, and Bureau 
of Indian Education (BIE) schools, and creates federal agency 
accountability to address education-related facility needs for both 
students and teachers.
    No resource is more important to the future of our nation and 
Indian Country than our children. For Native communities specifically, 
strengthening human capital to improve social welfare is a necessity to 
advance tribal sovereignty and maintain tribes' cultural vitality. 
Ensuring all students, including Native students, have a safe and 
healthy learning environment is a national duty, pivotal for lifelong 
academic and personal success. Within safe and healthy learning 
environments, and equally important, must be the delivery of high-
quality education through qualified and consistent teachers, whose 
concerns need not consist of inadequate housing in the area they commit 
to teaching. Equal educational opportunity is not only a matter of 
fairness, but essential in creating jobs, advancing personal wellness 
and empowering communities.
    NCAI's membership strongly supports the SAFETY Act, and we applaud 
your commitment to tribal youth with the introduction of the 
legislation. NCAI will continue to stand in support of the SAFETY Act 
as the legislation moves through the legislative process to be signed 
into law.
    I also write to express our support for S. 2304, the Tribal Early 
Childhood, Education, and Related Services Integration Act of 2015. The 
legislation addresses technical assistance and training needs for 
tribes to exercise their sovereignty and administer their own early 
childhood education programs, while ensuring access to educational and 
infrastructure resources, requiring federal agency coordination, and 
retaining school teachers.
    Providing a high-quality, culturally-appropriate education is 
imperative to the development and success of Native children, 
especially to our youngest students. By providing opportunities for 
success early on in the educational process, a student's chances to 
progress to the next grade level, attend college, and reach their full 
potential drastically increase. Adequate facilities and educator 
consistency also are critical factors for the academic success of our 
students, essential in establishing uniform educational standards for 
all students while protecting and advancing tribal sovereignty.
    NCAI's membership strongly supports the Tribal Early Childhood, 
Education, and Related Services Integration Act of 2015, and we applaud 
your commitment to tribal sovereignty and tribal youth with the 
introduction of this legislation. NCAI will continue lend our support 
of the Act as the legislation moves through the Senate and this 
Congress.
        Sincerely,
                                   Jacqueline Johnson Pata,
                                          Executive Director, NCAI.
                                 ______
                                 
   The National Indian Impacted Schools Association (NIISA)
Hon. Jon Tester,
Hon. Maria Cantwell,
Committee on Indian Affairs,
U.S. Senate,
Washington, DC.

    Dear Senator Tester and Senator Cantwell:

    The National Indian Impacted Schools Association (NIISA) 
enthusiastically endorses S. 2468, the ``Safe Academic Facilities and 
Environments for Tribal Youth Act'' or SAFETY Act. NIISA represents 
over 635 federally impacted public school districts that receive 
funding through the Impact Aid Program. This revenue source provides 
critical funding to school districts that educate children residing on 
Indian treaty, federal trust or Alaska Native Claims Settlement Act 
land.
    The initiatives in the SAFETY Act recognize the need for adequate 
facilities in federally impacted Indian lands public schools by 
recommending a GAO Study; Bureau of Indian Education (BIE) schools by 
requiring OMB to develop a ten year plan; tribal colleges and 
universities construction initiative and will provide housing 
assistance for educators serving in BIE and public schools with 
significant American Indian enrollment. A first class workforce in 
America begins with a first class education that is provided in first 
class facilities! The SAFETY Act will be foundational to identifying 
the backlog of facility renovation and construction needs in these 
education systems.
    NIISA is especially pleased to see federally impacted public 
school's facility needs prioritized. These school districts educate 
over 90 percent of American Indian students; however, as a result of 
federal presence, they have limited taxing authority for general 
operation and bonding for construction and renovation purposes. A GAO 
Study that evaluates the facility needs of these districts will be an 
important first step in documenting the backlog of need. Further, the 
Act directs the GAO to examine the adequacy of funding in Section 7007 
subparagraphs (A) and (B) of ESSA to document current levels of federal 
appropriations for facility upgrades, an equally important piece to 
reaching a long-term solution.
    Finally, NIISA wishes to express its gratitude to Senator Tester 
and Senator Cantwell for initiating this authorization. Please accept 
NIISA's endorsement of the SAFETY Act, S. 2468.
        Sincerely,
                                     Dan Hudson, President,
                            Brent Gish, Executive Director,
                                                             NIISA.
                                 ______
                                 
                                    Browning Public Schools
                                                      April 4, 2016
Hon. Jon Tester,
Committee on Indian Affairs,
U.S. Senate,
Washington, DC.

Dear Senator Tester:

    I write this letter on behalf of the Browning School District 
located in Browning, Montana in support of 2468: the Safe Academic 
Facilities and Environments for Tribal Youth Act--SAFETY ACT. Please 
know that the facility needs of our schools are as we indicated in the 
brief we left with you on our last visit to D.C. Specifically our lack 
of teacher housing makes it difficult for our district to not only 
attract teachers, but impacts our ability to retain them as well.
    We support S. 2469 in total as we fully recognize the construction 
needs of BIE schools, the tribally controlled community colleges as 
well as teacher housing. As public schools enrolling children residing 
on Indian Trust and Treaty land as well as Alaska Native lands, we are 
particularly interested in Section 7 of the bill calling for a GAO 
study of Section 7007 of the Impact Aid law (Title VII of Every Child 
Succeeds Act of 2015). Our district like others that depend on Title 
VII funding does not have the bonding capacity to fund our capital 
projects. Although Section 7007 provides funding for facility repair 
and modernization; the funding level is inadequate ($17 million per 
year) to meet the needs of Indian land districts and is shared by both 
our districts as well as districts serving military dependent children. 
Unfortunately there is little national data available supporting the 
need for facility funding for our schools. Although the Department of 
the Interior maintains a school facility condition index for all BIE 
schools and the Department of Defense recently completed an inventory 
documenting the facility needs of public schools located on a military 
installation, there is no national equivalent list that catalogs the 
infrastructure and maintenance needs of Impact Aid school districts. It 
is important to take notice of the fact that approximately 90 percent 
of Native students attend local public schools. Over 115,000 of those 
Native students are enrolled in one of 630 public school districts 
operated on or near a reservation
    A GAO Study that evaluates the facility needs of districts such as 
ours will be an important first step in documenting the backlog of 
need. On behalf of our district and the community we serve, I would ask 
that S. 2468 be made a committee priority and that the legislation be 
enacted prior to the conclusion of this Congress. Please know as well 
that should the committee be in need of further documentation of our 
facility needs, I would be happy to provide you with additional 
information including photos.
    Thank you again for your support of the Browning Public School 
District.
        Sincerely,
                                             John P. Rouse,
                                                    Superintendent.
                                 ______
                                 
                         Independent School District No. 38
                                                      April 4, 2016
Hon. Jon Tester,
Hon. Maria Cantwell,
Committee on Indian Affairs,
U.S. Senate,
Washington, DC.

Dear Senator Tester and Senator Cantwell:

    I write this letter on behalf of the Red Lake School District 
located in Red Lake, Minnesota in support of 2468: the Safe Academic 
Facilities and Environments for Tribal Youth Act--SAFETY ACT. Please 
know that the facility needs of our schools are in need of repair and 
in some cases modernization if not new construction. In addition our 
capacity with regard to high speed connectivity is lacking.
    We support S. 2469 in total as we fully recognize the construction 
needs of BIE schools, the tribally controlled community colleges as 
well as teacher housing. As public schools enrolling children residing 
on Indian Trust and Treaty land as well as Alaska Native lands, we are 
particularly interested in Section 7 of the bill calling for a GAO 
study of Section 7007 of the Impact Aid law (Title VII of Every Child 
Succeeds Act of 2015). Our district like others that depend on Title 
VII funding does not have the bonding capacity to fund our capital 
projects. Although Section 7007 provides funding for facility repair 
and modernization; the funding level is inadequate ($17 million per 
year) to meet the needs of Indian land districts and is shared by both 
our districts as well as districts serving military dependent children. 
Unfortunately there is little national data available supporting the 
need for facility funding for our schools. Although the Department of 
the Interior maintains a school facility condition index for all BIE 
schools and the Department of Defense recently completed an inventory 
documenting the facility needs of public schools located on a military 
installation, there is no national equivalent list that catalogs the 
infrastructure and maintenance needs of Impact Aid school districts. It 
is important to take notice of the fact that approximately 90 percent 
of Native students attend local public schools. Over 115,000 of those 
Native students are enrolled in one of 630 public school districts 
operated on or near a reservation
    A GAO Study that evaluates the facility needs of districts such as 
ours will be an important first step in documenting the backlog of 
need. On behalf of our district and the community we serve, I would ask 
that S. 2468 be made a committee priority and that the legislation be 
enacted prior to the conclusion of this Congress. Please know as well 
that should the committee be in need of further documentation of our 
facility needs, I would be happy to provide you with additional 
information including photos.
        Sincerely,
                                            Anne Lundquist,
                                                    Superintendent.
                                 ______
                                 
                                    Santee Community School
                                                      April 4, 2016
Hon. Jon Tester,
Hon. Maria Cantwell,
Committee on Indian Affairs,
U.S. Senate,
Washington, DC.

Dear Senator Tester and Senator Cantwell:

    I write this letter on behalf of the Santee Community School 
District located in Nebraska in support of 2468: the Safe Academic 
Facilities and Environments for Tribal Youth Act--SAFETY ACT. Please 
know that the facility needs of our schools are remodeling to provide a 
safe entrance into our building and to allow the rest of our school to 
be in a safe locked method. In addition, we have two buildings that are 
in need of connecting so that out students may safely travel back and 
forth between buildings especially when exposed to weather elements. We 
do offer limited teacher housing in order to attract and retain 
teaching staff, but they are in desperate need of updating including 
new roofs and facility updates.
    We support S. 2469 in total as we fully recognize the construction 
needs of BIE schools, the tribally controlled community colleges as 
well as teacher housing. As public schools enrolling children residing 
on Indian Trust and Treaty land as well as Alaska Native lands, we are 
particularly interested in Section 7 of the bill calling for a GAO 
study of Section 7007 of the Impact Aid law (Title VII of Every Child 
Succeeds Act of 201.5). Our district like others that depend on Title 
VII funding does not have the bonding capacity to fund our capital 
projects. Although Section 7007 provides funding for facility repair 
and modernization; the funding level is inadequate ($17 million per 
year) to meet the needs of Indian land districts and is shared by both 
our districts as well as districts serving military dependent children. 
Unfortunately there is little national data available supporting the 
need for facility funding for our schools. Although the Department of 
the Interior maintains a school facility condition index for all B1E 
schools and the Department of Defense recently completed an inventory 
documenting the facility needs of public schools located on a military 
installation, there is no national equivalent list that catalogs the 
infrastructure and maintenance needs of Impact Aid school districts. It 
is important to take notice of the fact that approxirnately 90 percent 
of Native students attend local public schools. Over 115,000 of those 
Native students are enrolled in one of 630 public school districts 
operated on or near a reservation.
    A GAO Study that evaluates the facility needs of districts such as 
ours will be an important first step in documenting the backlog of 
need. On behalf of our district and the community we serve, I would ask 
that S. 2468 be made a committee priority and that the legislation be 
enacted prior to the conclusion of this Congress. Please know as well 
that should the committee be in need of further documentation of our 
facility needs, would be happy to provide you with additional 
information including photos.
        Sincerely,
                                         Kristy Mackeprang,
                                                  Business Manager.
                                 ______
                                 
    Standing Rock Community School/Fort Yates Public School
                                                      April 4, 2016
Hon. Jon Tester,
Hon. Maria Cantwell,
Committee on Indian Affairs,
U.S. Senate,
Washington, DC.

Dear Senator Tester and Senator Cantwell:

    I write this letter on behalf of the Fort Yates Public School 
District located in Fort Yates, ND, in support of 2468: the Safe 
Academic Facilities and Environments for Tribal Youth Act - SAFETY ACT. 
Please know that the facility needs of our schools are in dire need of 
repair and in some cases modernization, if not new construction. In 
addition our teacher housing continues to be in need of repair/
replacement. Currently our lack of teacher housing makes it difficult 
for our district to not only attract teachers, but impacts our ability 
to retain them as well.
    We support S. 2469 in total as we fully recognize the construction 
needs of BIE schools, the tribally controlled community colleges as 
well as teacher housing. As public schools enrolling children residing 
on Indian Trust and Treaty land as well as Alaska Native lands, we are 
particularly interested in Section 7 of the bill calling for a GAO 
study of Section 7007 of the Impact Aid law (Title VII of Every Child 
Succeeds Act of 2015). Our district like others that depend on Title 
VII funding does not have the bonding capacity to fund our capital 
projects.
    Although Section 7007 provides funding for facility repair and 
modernization; the funding level is inadequate ($17 million per year) 
to meet the needs of Indian land districts and is shared by both our 
districts as well as districts serving military dependent children. 
Unfortunately there is little national data available supporting the 
need for facility funding for our schools. Although the Department of 
the Interior maintains a school facility condition index for all BIE 
schools and the Department of Defense recently completed an inventory 
documenting the facility needs of public schools located on a military 
installation, there is no national equivalent list that catalogs the 
infrastructure and maintenance needs of Impact Aid school districts. It 
is important to take notice of the fact that approximately 90 percent 
of Native students attend local public schools. Over 115,000 of those 
Native students are enrolled in one of 630 public school districts 
operated on or near a reservation.
    A GAO Study that evaluates the facility needs of districts such as 
ours will be an important first step in documenting the backlog of 
need. On behalf of our district and the community we serve, I would ask 
that S. 2468 be made a committee priority and that the legislation be 
enacted prior to the conclusion of this Congress. Please know as well 
that should the committee be in need of further documentation of our 
facility needs, I would be happy to provide you with additional 
information including photos.
        Sincerely,
                                               Robyn Baker,
                                                    Superintendent.
                                 ______
                                 
             National Indian Child Care Association (NICCA)
                                                      April 1, 2016
Hon. John Barrasso,
Committee on Indian Affairs,
U.S. Senate,
Washington, DC.

Dear Senator Barrasso:

    On behalf of the National Indian Child Care Association (NICCA), I 
am writing to express our support, as well as important considerations, 
for Senate Bill 2304, the Tribal Early Childhood, Education, and 
Related Services Integration Act of 2015.
    NICCA is the representative American Indian and Alaska Native (AI/
AN) organization serving the 260 Tribal Child Care and Development Fund 
(CCDF) grantees that serve Tribal children and families across the 
nation. We have been representing Tribal children and families and the 
programs that serve them since 1991.
    This bill, if enacted, would support Tribal programs in promoting 
early child development through a more comprehensive approach to 
service delivery and continuity of care for AI/AN children. While NICCA 
supports the general provisions of the bill, we suggest strengthening 
the bill in the following areas.
Consolidation of Funds, Waivers, and Funding Matches
    NICCA would like to ensure that the consolidation of funding to 
implement the demonstration project does not lead to a decrease in 
Tribal Child Care and Development Block Grant (CCDBG) funding. S. 2304 
does not indicate that any Tribal CCDBG regulations, policies, or 
procedures are waived or amended, so it is important to ensure that 
programs will have the resources to successfully implement all of their 
programs in accordance with the demonstration project. Additionally, we 
recommend that the bill be amended to remove language in section 805 
A(c)(5)(B)(ii) that prevents the Secretary from waiving ``any specific 
statutory requirement for recipients of Federal funding relate to.the 
use of Federal funds to supplement, and not supplant, non-Federal 
funds.'' Tribal programs often have difficulty in meeting non-Federal 
share requirements and we encourage the Committee to consider waiving 
the match requirement as funding flexibility is tantamount to the 
success of any Tribal early child education project.
Tribal Early Childhood Work Group
    NICCA supports the development of the Tribal Early Childhood Work 
Group and is grateful for the inclusion in the group. We are prepared 
to share our knowledge with the Work Group and the Administration. 
However, missing from the list of Work Group members is the National 
Indian Education Association--a key partner and stakeholder in Indian 
education, including early education. We urge this addition to the Work 
Group.
    NICCA thanks the Committee, especially Senator Tester, for the 
development and introduction of this bill and for the opportunity to 
provide our comments on the bill.
        Sincerely,
                                                  Kim Nall,
                                                             Chair.
                                 ______
                                 
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                 
                                  <all>
</pre></body></html>
